                                                EMPLOYMENT AND TRAINING
                                                ADMINISTRATION

Office of Inspector General—Office of Audit 





                                                JOB CORPS NEEDS TO IMPROVE RELIABILITY
                                                OF PERFORMANCE METRICS AND RESULTS




                                                                    Date Issued:   September 30, 2011
                                                                 Report Number:      26-11-004-03-370
U.S. Department of Labor                                     SEPTEMBER 2011
Office of Inspector General
Office of Audit
                                                             JOB CORPS NEEDS TO IMPROVE RELIABILITY OF
                                                             PERFORMANCE METRICS AND RESULTS

BRIEFLY…                                                     WHAT OIG FOUND
Highlights of Report Number 26-11-004-03-370,                Our audit identified deficiencies with 22 of the 58
issued to the Assistant Secretary, Employment and            performance metrics. These deficiencies included
Training Administration.                                     reporting inaccurate results (9 metrics); not reporting
                                                             results and/or establishing targets (4 metrics); and not
WHY READ THE REPORT                                          publicly publishing required results as Job Corps
The Department of Labor, Employment and Training             asserted it would in response to our prior work on non-
Administration (ETA), oversees the Office of Job Corps       compliance with the Workforce Investment Act of 1998
(Job Corps), which administers and manages the Job           (WIA) reporting requirements (19 metrics). For
Corps program. The program’s mission is to help at-risk      example, we found Job Corps overstated 42.3 percent
youth become more employable, responsible, and               (7,517) of 17,787 job training match placements it
productive citizens.                                         reported to comply with WIA for the periods reviewed.
                                                             These overstatements included 3,226 (18.1 percent)
Prior audit reports and evaluations conducted over the       matches where the jobs did not relate or poorly related
last 15 years cited concerns about the reliability of the    to the students’ training and 3,778 (21.2 percent)
metrics covering two key performance areas – job             matches where students were enrolled in post-
training match, which is used to measure how                 secondary education or training rather than jobs. The
effectively participants are placed in jobs that match the   job training matches also included 1,569 placements in
training they received in Job Corps, and cost efficiency,    jobs that required little or no previous work-related
which is used to measure program costs. Our audit            skills, knowledge, or experience, such as fast food
confirmed these long-standing deficiencies persist.          cooks and dishwashers that potentially could have been
                                                             obtained without Job Corps training. Thus, we believe
Job Corps’ budget for program years (PY) 2009 and            that if Job Corps improves oversight to better recruit,
2010 totaled approximately $3.39 billion ($1.68 billion      train, and place these students, an estimated $61.18
for PY 2009 and $1.71 billion for PY 2010).                  million would be put to better use.

WHY OIG CONDUCTED THE AUDIT                                  There were also problems with Job Corps’ approach for
We conducted the audit to address the following              calculating its cost efficiency metric, or cost per
question:                                                    participant ($26,551 for PY 2009). For example, the
                                                             metric did not effectively measure performance.
  To what extent does Job Corps have metrics in place        Additionally, our analysis of available Job Corps data
  to assess the program’s performance?                       showed alternate cost efficiency metrics, such as cost
                                                             per student training slot utilized ($37,880), if all slots are
Our scope covered Job Corps’ performance metrics             fully utilized) or job placement ($76,574), could provide
and outcomes for PY 2009 and the month of October            decision-makers with more reliable information to
2010, and policies, procedures, and processes through        measure and manage the program’s performance and
March 7, 2011.                                               costs.

READ THE FULL REPORT                                         WHAT OIG RECOMMENDED
To view the report, including the scope, methodology,        The OIG recommended that ETA require Job Corps
and full agency response, go to:                             review and improve its performance metrics to provide
                                                             decision-makers with useful and reliable information
http://www.oig.dol.gov/public/reports/oa/2011/26-11-         regarding the program’s performance and costs;
004-03-370.pdf.                                              improve oversight of its service providers to increase
                                                             the number of students who find employment that relate
                                                             to and utilize the vocational training received; and
                                                             develop a process to ensure work contracted for and
                                                             conducted by consultants is managed appropriately.

                                                             The Assistant Secretary for Employment and Training
                                                             did not completely agree with our conclusions, but fully
                                                             concurred with one recommendation and partially
                                                             concurred with two recommendations.
             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                             Report No. 26-11-004-03-370
                                                      U. S. Department of Labor – Office of Inspector General



Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective 1 — To what extent does Job Corps have metrics in place to assess the 

              program’s performance?..................................................................... 5

    Job Corps overstated the program’s job training match accomplishments and 

    cost efficiency. ........................................................................................................... 5

         Finding — Job Corps’ performance metrics did not always provide an 

                   accurate assessment of the program’s performance. ......................... 5


Recommendations ...................................................................................................... 20


Exhibits
         Exhibit 1 Analysis of Job Corps’ 58 Performance Metrics .................................. 23

         Exhibit 2 Job Corps Expenses for Prior and On-going Performance 

                   Measurement Evaluations.................................................................... 33


Appendices
         Appendix A Background ..................................................................................... 37

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 39

         Appendix C Terminology .................................................................................... 45

         Appendix D Acronyms and Abbreviations .......................................................... 51

         Appendix E ETA Response to Draft Report........................................................ 53

         Appendix F Acknowledgements ......................................................................... 61





                                    Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                                                 Report No. 26-11-004-03-370
             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                             Report No. 26-11-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                   Office of Inspector General
                                           Washington, D.C. 20210




September 30, 2011

                        Assistant Inspector General’s Report



Ms. Jane Oates
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, D.C. 20210

The Department of Labor (DOL), Employment and Training Administration (ETA),
oversees the Office of Job Corps (Job Corps), which administers and manages the Job
Corps program. This program’s mission is to help at-risk youth become more
employable, responsible, and productive citizens. The typical Job Corps student
entering the program has not completed high school, reads slightly below the 8th grade
level, has never had a full-time job, is between 16 and 24 years old, and is from an
economically disadvantaged family. Given the significant academic, employability, and
vocational barriers many Job Corps students face, Job Corps takes a holistic approach
to education and training, assessing each student’s needs and designing an
individualized program or intervention to address those needs.

Job Corps’ budget for program years (PY) 2009 and 2010 totaled approximately $3.39
billion ($1.68 billion for PY 2009 and $1.71 billion for PY 2010). Job Corps relies on a
complex performance management system consisting of 58 performance metrics to
assess the program’s effectiveness and meet mandated and internal accountability
priorities. Over the last 15 years, the Government Accountability Office (GAO), the
Office of Management and Budget (OMB), and a consultant hired by Job Corps itself
have expressed long-standing concerns about the reliability of the metrics covering two
key performance areas – job training match, which is used to measure how effectively
participants are placed in jobs that match the training they received in Job Corps, and
cost efficiency, which is used to measure program costs. Since 2007, DOL has spent
$1.46 million on consultants and an advisory committee to improve its performance
metrics and outcomes, as well as other aspects of the program.

Our audit objective was to answer the following question:

      To what extent does Job Corps have metrics in place to assess the program’s
      performance?

Our scope covered Job Corps’ performance metrics and outcomes for PY 2009 and the
month of October 2010, and policies, procedures, and processes through

                         Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                             1                        Report No. 26-11-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


March 7, 2011. Our work was generally conducted at Job Corps headquarters in
Washington, D.C.

To accomplish our objective, we interviewed Job Corps management officials and staff;
interviewed program examiners at OMB to gain their feedback on Job Corps’
compliance with certain OMB requirements; reviewed related GAO guidance and
consulted with GAO management and senior analysts to gain GAO’s perspective on
performance measurement; reviewed applicable mandated and internal requirements;
reviewed prior Office of Inspector General (OIG) and GAO audit reports and evaluations
conducted by DOL consultants and Job Corps staff for prior deficiencies; assessed
corrective actions and determined the impact on select performance results; analyzed
Job Corps’ performance metrics and corresponding results against key attributes for
successful performance measures; determined related data applicable to our scope was
sufficiently reliable to accomplish our audit objectives; and performed walkthroughs of
select metrics and results.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objective, scope, methodology and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

While Job Corps had 58 performance metrics in place (refer to Exhibit 1), these metrics
did not always provide a clear and accurate assessment of the program’s performance.
In aggregate, we found reporting deficiencies with 22 of the 58 metrics; including 10
with multiple deficiencies. Specifically, Job Corps reported inaccurate results (9
metrics); did not report results and/or establish performance targets (4 metrics); or did
not publish results and make them publicly available as asserted in its response to our
March 2009 report on non-compliance with the Workforce Investment Act of 1998 (WIA)
reporting requirements (19 metrics). Thus, Job Corps and other decision-makers (e.g.,
Congress, ETA) did not always have complete and accurate performance information
on which to base effective decision-making.

Five of the nine metrics reported inaccurate accomplishments related to two key areas
of performance – job training match (four) and cost efficiency (one). Prior audit reports
and evaluations over the last 15 years expressed serious concerns about the reliability
of the metrics covering these two areas. While we noted changes that supported an
overall trend toward improvement, such as reducing the number of allowable broad
placement categories (e.g., cashier, retail salespersons) that were considered matches
for several vocations, reliability problems persist. For example, problems with how Job
Corps calculated its job training matches led to an overstatement of 7,517 (42.3
percent) of its 17,787 matches reported to comply with WIA for the periods reviewed.


                         Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                             2                        Report No. 26-11-004-03-370
                                                  U. S. Department of Labor – Office of Inspector General


Specifically, 3,226 of these matches either did not relate or poorly related to the
vocational training received (e.g., students trained in office administration placed in fast
food restaurants); and another 4,291 matches that were enrollments in post-secondary
education and training (3,778) and military enlistments (513), regardless of the students’
vocational training and assigned duties.

The aggregate job training matches also included 1,569 placements in jobs that
required little or no previous work-related skills, knowledge, or experience, such as fast
food cooks and cashiers, janitors, and dishwashers that potentially could have been
obtained without Job Corps training. While Job Corps may have helped these students
become more employable and responsible, the final outcome – placements in jobs the
students potentially could have obtained without Job Corps training – was not the best
result the program could have achieved.

In addition, there were numerous problems with Job Corps’ approach for calculating its
cost efficiency metric, or cost per participant ($26,551 for PY 2009), which Job Corps
derived by dividing a portion of its appropriated expenses by the number of new
participants over the course of a program year. The metric did not reflect outcomes
such as job placement or training completion; excluded program administration
expenses; and could inaccurately show acceptable or improved performance when
program performance is actually declining. For example, increases in new participants
due to a higher number of drop-outs would inaccurately reflect improvements in Job
Corps’ cost efficiency results because costs per participant would decrease. In
response to concerns raised by OMB in 2007, Job Corps acknowledged this metric was
inadequate because it was not linked to performance outcomes and indicated it would
adopt efficiency metrics by September 2009 that would link to performance outcomes
and account for all costs. However, Job Corps has not modified its approach and
continues to use cost per participant to measure efficiency. Job Corps also told us it did
not use this metric to make performance or outcome decisions, despite being provided
to Congress in Job Corps’ Congressional Budget Justifications for fiscal years 2009 –
2012. Our analysis of available Job Corps data showed many alternate cost efficiency
metrics based on planned enrollment or outcomes, such as cost per training slot utilized
($37,880, if all slots are fully utilized), successful outcome ($42,952), or job placement
($76,574), could provide decision-makers with more reliable information to measure and
manage the program’s performance and costs.1

Since 2007, DOL has spent $1.46 million on consultants and an advisory committee to
improve Job Corps’ performance metrics and outcomes, as well as other aspects of the
program. However, many of these concerns persist because Job Corps did not place
sufficient emphasis to implement the necessary improvements to more effectively
assess the program’s performance. For example, Job Corps did not accept its
consultant’s cost efficiency recommendations, which would have addressed some of
our related concerns.



1
    Calculations based on Job Corps data for PY 2009.

                                   Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                       3                        Report No. 26-11-004-03-370
                                                  U. S. Department of Labor – Office of Inspector General


In total, we identified $61.18 million in funds that would be put to better use if Job Corps
improves oversight to more effectively recruit, train, and place these students. This
included $1.65 million Job Corps would pay the contracted service providers to place
students in jobs that relate to the vocational training received2 and $59.53 million Job
Corps would spend on students obtaining jobs as a result of the recruiting, training, and
placement efforts provided by Job Corps.3

We recommend the Assistant Secretary for Employment and Training require Job Corps
to (1) review and improve its performance metrics to provide decision-makers with
useful and reliable information regarding the program’s performance and costs, which
includes ensuring metrics are complete and accurate, comply with WIA, and have
reported results and established targets; (2) improve oversight of its service providers to
increase the number of students who find employment that relate to and utilize the
vocational training received; and (3) develop a process to ensure the scope of work
contracted for and conducted by consultants is managed appropriately.

ETA RESPONSE

In response to our draft report, ETA stated it will take responsibility for the job training
matches found to be invalid and will assess liquidated damages to the responsible
contractors. However, ETA did not agree with our conclusions related to automatically
counting military enlistments and educational enrollments as job training matches;
placing students in jobs that required little or no training; developing and using alternate
cost efficiency metrics; managing its consultants more appropriately; and overall
calculation of funds put to better use.

OIG CONCLUSION

We revised our estimate of funds put to better use for students placed in jobs that
required little or no training as recommended by Job Corps. Our estimate is based on
the liquidated damages amount of ($750) specified in Job Corps’ PRH for invalid
placements. With the exception of this revision, ETA did not provide any new
information that changed the conclusions stated in the report.




2
  Calculation of $1.65 million did not include overstated match placements in jobs that required little or no previous 

work-related skills, knowledge, or experience. See footnotes 14 and 15 for details.

3
  Calculation of $59.53 million (1,569 x $37,941) derived by multiplying 1,569 placements by the cost per training slot 

utilized ($37,941 if all slots are fully utilized). See footnote 17 for additional details.


                                  Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                      4                        Report No. 26-11-004-03-370
                                              U. S. Department of Labor – Office of Inspector General


RESULTS AND FINDINGS

Objective 1 — To what extent does Job Corps have metrics in place to assess the
              program’s performance?

           Job Corps overstated the program’s job training match accomplishments and
           cost efficiency.

Finding — Job Corps’ performance metrics did not always provide an accurate
          assessment of the program’s performance.

Our audit identified deficiencies with 22 of the 58 performance metrics. These
deficiencies included reporting inaccurate results (9 metrics); not reporting results
and/or establishing targets (4 metrics); and not publicly publishing WIA-required results
as Job Corps asserted it would in response to our prior work (19 metrics). In addition,
prior audit reports and evaluations conducted over the last 15 years cited concerns
about the reliability of the metrics covering two key performance areas – job training
match and cost efficiency. Our audit confirmed these long-standing deficiencies persist.

Job Corps established and uses a complex performance management system to meet
mandated and internal accountability priorities and to assess the program’s
effectiveness. The system consists of 58 metrics developed to address multiple
performance reporting requirements mandated by WIA, the Government Performance
and Results Act of 1993 (GPRA), OMB, the Common Measures, DOL, and Job Corps.
These various requirements and corresponding metrics provide the basis for assessing
the program’s performance and effectiveness, and establish accountability for achieving
results, such as placements in employment, cost efficiency, and attainment of a high
school diploma (HSD) or general educational development (GED) certificate. See
Exhibit 1 and Appendix A for details. Job Corps uses metric results to assess the
performance of Job Corps center operators and contracted service providers, which
impact decisions about contract awards and renewals, incentive fees, and performance
bonuses.

We analyzed Job Corps’ 58 performance metrics to determine if they met certain
attributes that GAO cited as key to successful performance measures. The attributes
were:

       	 Linkage to Goals. Metric was aligned with agency and program mission and
          goals.4

       	 Complete and Accurate Results. Metric, by design, was consistent with
          mandated or internal performance measure requirements and produced the
          appropriate results. To address prior concerns related to Job Corps’ job training


4
    GAO, GAO 03-143 (Washington, D.C.: November 2002).

                                Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                    5                        Report No. 26-11-004-03-370
                                               U. S. Department of Labor – Office of Inspector General


        match and cost efficiency metrics, we also tested the data reliability of select
        performance outcomes related to these metrics.5

    	 Target and Reported Results. Metric had a specific target and reported results
       that were quantifiable and measurable to fully evaluate progress toward expected
       performance.6

Of the 58 metrics, 25 were required by WIA. We tested these 25 WIA-required metrics
to determine whether the performance results were published and publicly available as
asserted by Job Corps in response to our prior work.7

22 of 58 Performance Metrics Had Deficiencies

In aggregate, we found all 58 performance metrics were linked or aligned with DOL and
Job Corps’ mission and goals. However, 22 metrics had reporting deficiencies, which
included 9 metrics with inaccurate results. These nine metrics had inaccurate results
because the metrics, by design, did not measure the required performance areas as
mandated by WIA or OMB and therefore, did not produce the appropriate results. For
metrics to be effective, they must be properly defined and correctly measured. None of
these nine metrics met all of these criteria. See Exhibit 1 for details. Five of these nine
metrics related to job training match (four) and cost efficiency (one).

Known Deficiencies Concerning the Reliability of Job Corps’ Job Training Match and
Cost Efficiency Metrics Persisted for Years

Over the last 15 years, GAO, OMB, and a consultant hired by Job Corps have
expressed long-standing concerns about the reliability of the metrics covering two key
performance areas – job training match and cost efficiency. For job training match, WIA
requires Job Corps to measure and report how effectively participants are placed in jobs
that match the vocational training they received in Job Corps. In 1997, GAO reported
the program’s job training match metrics were flawed because performance results
included jobs that (1) did not relate, or poorly related, to the training received or (2)
required relatively little training to perform ranging from a short demonstration to one
month of instruction.8 In 1998, GAO also questioned Job Corps’ policy for counting any
participant that enlisted in the military as a successful job training match, regardless of
the student’s vocational training and assigned duties.9

In addition, since 2007, OMB,10 a contractor hired by Job Corps,11 and GAO12 raised
concerns about the limitations of Job Corps use of cost per participant to measure cost
5
  GAO, GAO/GGD-96-118 (Washington, D.C.: June 1996). 

6
  GAO, GAO 03-143 (Washington, D.C.: November 2002). 

7
  DOL OIG, Report No. 04-09-003-01-370 (Washington, D.C.: March 2009). 

8
  GAO, GAO/HEHS-98-1 (Washington, D.C.: October 1997).

9
  GAO, GAO/HEHS-99-15 (Washington, D.C.: November 1998). 

10
   OMB, Program Assessment Rating Tool (PART): Job Corps (2007). 

11
   HeiTech Services, Inc., Job Corps Cost Measure: Selecting a Cost Measure to Assess Program Results, Contract 

No. DOLJ079625486, (December 2008).
12
   GAO, GAO-10-394 (Washington, D.C.: May 2010).

                                Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                    6                        Report No. 26-11-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


efficiency and recommended the use of cost efficiency metrics that link performance
outcomes (e.g., placements in employment or post-secondary education or training) to
actual, total program costs rather than select appropriated funding. While Job Corps has
taken steps to improve its job training matches and explore alternate cost efficiency
metrics, our work found these concerns persist, and Job Corps continues to use cost
per participant to measure the program’s cost efficiency.

18.1 Percent of Job Training Matches Included Jobs That Did Not Relate or Poorly
Related to Training

To address long-standing concerns raised by GAO, Job Corps changed several policies
and procedures over the years to improve its job training match crosswalk – criteria
used to determine training-related placements – and enhance its overall credibility.
These changes included improving the linkage between Job Corps’ crosswalk and the
Occupational Information Network’s Standard Occupational Classification systems
(O*NET-SOC), a database of occupational requirements and worker attributes,
maintained by ETA. O*NET-SOC is the recognized standard for occupational
information and describes occupations in terms of the skills and knowledge required;
how the work is performed; and typical work settings. Between 2008 and 2010, Job
Corps worked in consort with ETA to improve the linkage between training, placements,
and O*NET-SOC, and issued a revised crosswalk in October 2010. According to Job
Corps, the 2010 crosswalk substantially improved the fundamental linkage between
training and placement by (1) categorizing training and job activities and (2) recreating
the entire crosswalk from the ground up. In addition, Job Corps told us the 2010
crosswalk fixed the broad placement categories, such as cashier and retail
salespersons, that were considered matches for several unrelated vocations.

As part of our testing, we reviewed Job Corps’ crosswalk and related policies, metrics,
and outcomes for PY 2009 and the month of October 2010 to determine whether Job
Corps had taken the necessary corrective actions to address prior audit deficiencies
and the validity of its job training match placements reported for these periods. See
Appendix B for a detailed description of our audit methodology. While we noted
crosswalk changes that supported an overall trend toward improvement, the
improvements were less significant than Job Corps described. For example, Job Corps
reduced the number of broad placement categories in its 2010 crosswalk, but continued
to allow placements as stock clerks (sales floor) or parts salespersons to be broadly
used for any vocation, including culinary and nursing. Job Corps acknowledged the data
integrity risks associated with these two broad job placement categories and told us it
was developing software enhancements to limit the likelihood of inaccurate matches. In
addition, Job Corps continued to allow matches that were questioned 15 years ago by
GAO such as auto repair students placed as car detailers or car washers and
hotel/motel service industry students placed as ticket sellers at movie theaters. Other
matches considered acceptable in the 2009 and 2010 crosswalks included:




                         Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                             7                        Report No. 26-11-004-03-370
                                             U. S. Department of Labor – Office of Inspector General


     	 Culinary students placed as pest control workers, funeral attendants, baggage
        porters, concierges, tour guides, telemarketers, cashiers, telephone operators,
        financial examiners, accounting clerks, and file clerks (PY 2009).

     	 Nurse assistant and pharmacy technician students placed as cashiers, telephone
        operators, tax preparers, real estate agents, couriers, file clerks, and reservation
        and transportation ticket agents (PY 2009).

     	 Solar energy and weatherization students placed as janitors and pest control
        workers (October 2010).

In verifying the data reliability of Job Corps job training match outcomes, we reviewed
the database records for all 17,787 reported matches for PY 2009 (16,234) and October
2010 (1,553). We determined whether each student’s vocational training appropriately
related to their job placements in accordance with WIA. We based our determination on
the student’s place of employment and job position, and duties (when available),
regardless of whether the matches were considered acceptable by Job Corps’
crosswalks. For example, we considered nursing assistant students employed as
medical assistants, home health aides, or registered nurses appropriate job training
matches (included in the 2009 and 2010 crosswalks). However, we questioned the
matches such as the ones described above. As a result, we found 3,226 (18.1 percent)
overstated matches for both periods where the jobs did not relate or poorly related to
the students’ training.13 These included:

     	 Non-culinary students, including office administration, medical office, and
        construction students, placed at fast food employers, such as McDonald’s,
        Burger King, and Wendy’s as crew persons, cashiers, or customer service. This
        accounted for 326 (PY 2009) and 20 (October 2010) matches.

     	 Non-retail students, including office administration, culinary, automobile
        technician, and nurse assistant students, placed as sales persons, stockers, or
        laborers at Walmart. This accounted for 113 (PY 2009) and 28 (October 2010)
        matches.

     	 Various students, including culinary, nurse assistant and medical office support,
        placed at the United States Census as enumerators, clerks, and crew. This
        accounted for 17 matches (PY 2009).




13
 These placements were based upon our representative simple random sample that was estimated with 95 percent
confidence and assuming the highest variance in the populations.

                               Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                   8                        Report No. 26-11-004-03-370
                                                      U. S. Department of Labor – Office of Inspector General


Table 1 below summarizes our test results and the specific training areas impacted.

Table 1: Number of Job Placements That Did Not Relate or Poorly Related to Training
                                                PY 2009 October 2010              Total
Reported Job Training Matches 	                  16,234            1,553        17,787

Vocational Training Received 	                                 Not Related or Poorly Related Placements
 1) Office Administration                                               907             83          990
 2) Constructiona                                                       782             70          852
 3) Culinary Arts                                                       269             15          284
 4) Medical Office Support                                              321             25          346
 5) Nurse Assistant                                                    139              16          155
 6) Automobile Techniciana                                              101               6         107
 7) Material Handling and Distribution                                   83               3          86
 8) Retail Sales                                                         58               1          59
 9) Pharmacy Technician                                                  54             11           65
 10) Hotel and Lodging                                                   53               6          59
 11) Accounting                                                          50               1          51
 12) Heavy Equipment Operationsa                                         49             12           61
 13) Facilities Maintenance                                              36             15           51
 14) Security and Protective                                             21               9          30
 15) Forestry Conservationa                                               9               0           9
 16) Landscaping                                                          5               0           5
 17) Dentist Assistant                                                    4               1           5
 18) Computer Technician                                                  4               7          11
Totals                                                               2,945             281        3,226
Percentage of Job Placements That Did                                  18.1           18.1         18.1
Not Relate or Poorly Related to Training
Source: OIG analysis of Job Corps job training match data.

a
 For purposes of this table:

-	   construction included asphalt paving, bricklayer, carpentry, cement masonry, electrical, floor covering, overhead
     line construction, painter, plaster, plumber, sign and billboard, tile setting, and welding students;

-	   automobile technician included auto parts, collision repair and general service technician students;

-	   heavy equipment operations included heavy truck driving, machine repair and roustabout students; and

-	   forestry conservation included urban forestry and conservation firefighting students.




                                     Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                         9                        Report No. 26-11-004-03-370
                                                 U. S. Department of Labor – Office of Inspector General


On average, Job Corps spent an estimated $1,196 per student on career transition
services (CTS) to help these students find and retain jobs that matched their training.14
Given the results, we believe the $1.65 million spent on these efforts would be put to
better use if Job Corps improves oversight of its CTS to more effectively place the
students.15

Job Corps indicated its job training match metrics were in compliance and consistent
with WIA, but acknowledged that job training matches may have been overstated, just
not to the extent OIG identified. In response, Job Corps told us it recently installed other
system mechanisms to hold career transition services providers more accountable for
genuine job training match placement, such as requiring them to attest, in writing, to the
validity of each job training match credit. Job Corps said it would convene a workgroup
to further improve the career transition services system. Job Corps indicated it will take
responsibility for any invalid matches and take steps to correct them, assess liquidated
damages to applicable career transition services agencies, and prevent future
occurrences.

Automatic Inclusions for Military Enlistments and Post-Secondary Education/Training
Enrollments Overstated Job Training Match Placements by 3.9 Percent and 21.2
Percent Respectively

In addition, Job Corps continued to automatically count all military enlistments as job
training matches without regard to the students’ vocational training and assigned duties,
even though GAO questioned this practice in 1998. According to Job Corps, military
enlistments were captured as automatic matches as early as 1992. In 2007, Job Corps
further expanded the job training match metrics to automatically count non-jobs (i.e.,
enrollments in post-secondary education or training) in response to recommendations
from the Secretary’s Advisory Committee on Job Corps, an advisory committee formed
by the Secretary of Labor to provide advice and recommendations related to policies,
legislation, and regulations related to Job Corps. Concerned that the job training match
metrics created a disincentive for some centers to place students forward to advanced
training or other more beneficial placements, the committee recommended Job Corps
incentivize job training match to include rewards for advanced training, post-secondary
placement or additional training that might lead to higher wage employment. Job Corps
indicated that the inclusion of both military and educational placements is consistent
with Job Corps’ overall teaching and learning approach because these placements
present students with a broad range of career, not just job, options that lead to long-

14
   Calculation of $1,196 per student ($53.38 million/44,636) is the result of dividing the total CTS expenses in the
amount of $53.38 million by the total number of students in Job Corps placement pool for PY 2009 (44,636).
Expenses and number eligible graduates and former enrollees for October 2010 were not available. Numbers may
not add up exactly due to rounding.
15
   Job Corps indicated that the estimate of $1,196 did not account for all of the services provided beyond placements,
such as identifying housing and other forms of assistance. As recommended by Job Corps, we used the liquidated
damages amount of ($750) to calculate the funds put to better use as specified in Job Corps’ Policy and
Requirements Handbook (PRH) for invalid placements. While we do not consider these placements to be invalid, we
agreed to use this lower amount to calculate the funds put to better use. The calculation of $1.65 million (2,194 x
$750) did not include overstated match placements in jobs that required little or no previous work-related skills,
knowledge, or experience (1,032) and is the product of 2,194 (3,226 – 1,032) multiplied by $750.

                                 Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                     10                       Report No. 26-11-004-03-370
                                                U. S. Department of Labor – Office of Inspector General


term, stable employment with self-sustaining wages. While Job Corps’ broad
interpretations of job training matches acknowledge the various pathways to gaining
employment and the depth of the program’s training, it strays from WIA by automatically
counting military enlistments and non-jobs without showing how these placements
match the training the students received. Moreover, Job Corps has other metrics which
include placements in military and education. Including these placements in the job
training match metrics overstates Job Corps’ performance and dilutes the value of the
metrics. These deficiencies were found in Job Corps’ crosswalk, policies, and related
outcomes for both of the periods reviewed and accounted an aggregate of 513 (3.9
percent) military enlistments and 3,778 (21.2 percent) placements in non-jobs (post-
secondary education and training).

Overall, we found Job Corps overstated 42.3 percent (7,517) of its 17,787 job training
matches reported to comply with WIA for both PY 2009 and October 2010. See Table 2
below.

Table 2: Job Training Matches Overstated by 42.3 Percent
                                                PY 2009                           October           Totals (%)
                                                                                     2010
Reported Job Training Matches                                    16,234             1,553         17,787 (100)
Overstated Job Training Matches
1) Job placements that did not relate or
   poorly related to training received……........                   2,945                281        3,226 (18.1)
2) Automatic placements

      Military enlistments………………………..                                469                  44          513 (3.9)

      Post-secondary education and training
      enrollments…………………………………                                     3,368                410        3,778 (21.2)

Subtotals                                                          3,837                454        4,291 (24.1)
Totals                                                             6,782                735        7,517 (42.3)
Source: OIG analysis of Job Corps job training match data.


Placements in Jobs Requiring Relatively Little Training to Perform Resulted in Poor Job
Training Matches

Job Corps continued to report training-related matches for job placements that required
relatively little training to perform even though this practice was questioned by GAO 15
years ago. Job Corps criteria and related outcomes included 42 occupations that
O*NET-SOC, upon which the crosswalk was based, identified as needing little or no
previous work-related skill, knowledge, or experience to perform. According to O*NET-
SOC, the average training time for employees in these occupations ranged from a few
days (short demonstration) to three months.16 In comparison, graduates, who account
16
  The occupational categories GAO questioned in 1997 required up to one month of training. Similar categories used
in the crosswalks we reviewed indicated up to three months of training.

                                Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                    11                       Report No. 26-11-004-03-370
                                                 U. S. Department of Labor – Office of Inspector General


for all job training matches, stay an average of 12 months at a cost of approximately
$37,941 per student training slot, if fully utilized.17 This raises the concern that a number
of Job Corps students potentially could have obtained some of these jobs without Job
Corps training.

According to Job Corps, these classifications were written with the average American
worker in mind, not those from disadvantage backgrounds. The typical Job Corps
student entering the program has not completed high school, reads slightly below the 8th
grade level, has never had a full-time job, is between 16 and 24 years old, and is from
an economically disadvantaged family. Given the significant academic, employability,
and vocational barriers many Job Corps students face, we reduced the 42 occupations
classified by O*NET-SOC to 15 occupations we determined needed the least amount of
training to perform. These 15 occupations included fast food cooks, janitors, vehicle
cleaners, dishwashers, and parking lot attendants. In aggregate, 1,569 students were
placed in these jobs that potentially could have been obtained without Job Corps
training.18 Incidentally, jobs at fast food restaurants accounted for over one-third or 37.3
percent of these placements.19 The specific occupations and the impact on placements
for PY 2009 and October 2010 are summarized in Table 3 on the following page.




17
   The average cost per training slot for both periods totaled $37,941 (($37,880 + $38,002)/2). The cost per training
slot totaled $37,880 ($1,683,938,000 budgeted appropriations/44,455 budgeted training slots) for PY 2009 and
$38,002 ($1,708,205,000/44,950 budgeted training slots) for October 2010.
18
   These placements were based upon our representative simple random sample that was estimated with 95 percent
confidence and assuming the highest variance in the populations.
19
   This amount was calculated by dividing the total number of fast food cooks (476) and fast food cashiers (110) by
these placements (1,569).

                                 Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                     12                       Report No. 26-11-004-03-370
                                                     U. S. Department of Labor – Office of Inspector General




Source: OIG analysis of Job Corps job training match data.
a
 These placements also include 1,032 placements that did not relate or poorly related to the training received and are
accounted for in Tables 1 and 2 above.
b
    For purposes of this table:
-
      office administration also included accounting services, computer networking, computer technician and visual
      communication students;
-
      construction also included bricklaying, carpentry, cement masonry, electrical, floor covering, heating ventilation
      and air conditioning, landscaping, painting, plasterer, plumbing, tile setting, urban forestry and welding students;
-
      medical office also included clinical medical assistant, dentist assistant and pharmacy technician students; and
-
      heavy equipment operations includes students completing vocational training of heavy truck driving, manufacturing
      and machining.
c
 For purposes of our testing, we broke out two categories – fast food cook and counter attendant – to account for
related cashier placements (e.g., cashier at a fast food restaurant).

Job Corps acknowledged these were not ideal placements, but stated that achieving
and maintaining a basic entry level job at the end of the Job Corps experience is a
crowning achievement for most students, particularly in a labor market of high
unemployment as has been the case for the past several years. While we recognize
that Job Corps efforts may have helped these students become more employable and
responsible, and in some instances placed students in jobs related to the training
received (e.g., culinary students at fast food restaurants), the final outcome –
placements in jobs the students potentially could have obtained without Job Corps
training – was not the best result the program could have achieved. Thus, we believe
the funds expended for these students’ training slots, which in aggregate cost an
estimated $59.53 million (1,569 x $37,941) would be put to better use if Job Corps
improves oversight to more effectively recruit, train, and place these students.

                                     Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                         13                       Report No. 26-11-004-03-370
                                                  U. S. Department of Labor – Office of Inspector General



As such, the job training match metric did not provide Job Corps and other decision-
makers (e.g., Congress, ETA) with reliable performance information to determine how
effectively Job Corps placed students in jobs that matched the vocational training they
received and to determine where Job Corps needs to improve to achieve desired
outcomes. Additionally, these results are used to assess and rank the performance of
Job Corps center operators and contracted service providers on performance report
cards which impact incentive fee, performance bonus, and contract renewal decisions.
Job training match performance accounts for 10 percent of the overall report card rating
for contracted service providers that place students and 5 percent for center operators.

Cost Efficiency Metric Did Not Reflect Outcomes and Overstated Cost Efficiency

There were numerous problems with Job Corps’ approach for calculating its cost
efficiency metric, or cost per participant ($26,551 for PY 2009), which Job Corps derived
by dividing a portion of its appropriated funds by the number of new enrollees over the
course of a program year. The metric did not reflect outcomes (e.g., job placement,
HSD or GED attainment, training completion); excluded program administration
expenses ($28.66 million for PY 2009); and could inaccurately show acceptable or
improved performance when program performance is actually declining. For example,
increases in new enrollees due to a higher number of drop-outs would inaccurately
reflect improvements in Job Corps’ cost efficiency results and lower costs per
participant. Even though the metric is consistent with ETA’s guidance for reporting cost
efficiency, OMB, consultants hired by Job Corps and ETA, and GAO have all cited the
limitations of using cost per participant to measure cost efficiency as early as 2007 and
recommended the use of alternate metrics that link performance outcomes to actual
program costs. Given some of these limitations, Job Corps told us the metric, while
used for resource, contract management and budget decisions, was not used to make
performance or outcome decisions, despite being provided to Congress in Job Corps’
Congressional Budget Justifications for fiscal years 2009 – 2012. For FYs 2010 and
2011, Job Corps reported PY 2009 cost efficiency, or cost per participant, totaled
$26,551. These results were based on appropriated operation and construction funds of
$1.66 billion and 62,344 estimated new enrollees for PY 2009.20 The results did not
include Job Corps $28.66 million in appropriated program administration funds that
were used to pay for Federal staff in Job Corps National Office that are responsible for
program accountability and assessment and monitoring of contractor performance,
including data integrity and financial accountability.

In 2007, OMB reported that Job Corps’ efficiency metric was inadequate because it was
not linked to performance outcomes. Job Corps concurred and indicated it would adopt
efficiency metrics that link to performance outcomes, account for all costs, and facilitate
comparisons across DOL training and employment programs by September 2009. To
address these concerns, Job Corps contracted with a technical expert who
recommended Job Corps use a cost per successful outcome efficiency metric based on
the program’s positive performance outcomes, such as graduation, job placement, and
20
     Congressional Budget Justification, ETA, Job Corps (FY 2010 and 2011).

                                   Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                       14                       Report No. 26-11-004-03-370
                                                U. S. Department of Labor – Office of Inspector General


educational attainment; and actual operating, construction, and direct administration
costs (rather than appropriations or obligations). Additionally, an ETA-commissioned
study to help develop outcome-based efficiency metrics for 11 ETA-administered
employment and training programs, excluding Job Corps, similarly noted the limited
usefulness of cost per participant efficiency metrics and recommended the
implementation of outcome-based efficiency metrics that reflect Common Measures
performance outcomes and actual program costs in 2010.21 Among the efficiency
metrics recommended for consideration were cost per placement in employment or
education, cost per retained employment, and cost per post-program (average)
earnings.22 In 2010, GAO indicated that appropriations or obligations may not represent
the resources actually used to produce a program’s outcomes in that given year and
cited Job Corps as an example of a program that used incomplete cost data in its
efficiency measure.

While both Job Corps and ETA’s consultants recommended alternate cost efficiency
metrics, they also cautioned against hasty implementation, as well as against
comparisons with other employment and training programs because of varying
objectives, different target populations, and different cost structures. We also recognize
the challenge of developing efficiency metrics to measure and improve program
performance. As such, Job Corps had several options for alternate cost efficiency
metrics to better measure and manage the program’s performance and costs. Many of
the options considered enrollment, outcome, and cost data that were already being
collected. Examples using Job Corps PY 2009 data included:23

     	 Cost per student training slot utilized ($37,880). Student training slots represent
        the program’s planned capacity and the maximum number of students that can
        be enrolled in Job Corps at any given time during the program year. Throughout
        the year, multiple students can occupy one slot. However, only one student can
        occupy a slot at a time. This metric provides an assessment of cost relative to
        Job Corps ability to operate at full capacity. When Job Corps’ enrollment efforts
        result in decreasing slot utilization, the cost per student training slot utilized
        increases, indicating a drop in performance. For PY 2009, an estimated 62,344
        students were enrolled, but only 44,455 training slots were available, meaning
        each slot was occupied by 1.4 students. Total program funding equaled $1.68
        billion. As a result, the cost per slot for PY 2009, if fully utilized, averaged
        $37,880 ($1.68 billion/44,455 slots).24

     	 Cost per successful performance outcome ($42,952). Cost per successful,
        outcome-based measure was an option suggested by the commissioned studies
21
   Job Corps was not included because it was not part of ETA during the period of the study. However, four other DOL
WIA programs were included.
22
   Capital Research Corporation and Johns Hopkins University Institute for Policy Studies, Implementing Efficiency
Measures for Employment and Training Programs, Contract No. DOLJ061A20363 (May 2010).
23
   The breakdown of Job Corps actual operations, construction, and administration costs for PY 2009 was not
available during our fieldwork. As a result, we used Job Corps appropriated funding for PY 2009 for each of these
areas as provided in Job Corps’ Congressional Budget Justifications (FY 2010 and 2011).
24
   Calculation was based on PY 2009 data provided in Job Corps’ Congressional Budget Justifications for FY 2010
and 2011. Numbers do not add exactly due to rounding.

                                 Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                     15                       Report No. 26-11-004-03-370
                                                 U. S. Department of Labor – Office of Inspector General


         cited above that considered and linked certain Common Measure outcomes,
         such as former enrollees who were placed in a job; the military; or post-
         secondary education or training and total program graduates to total program
         costs.25 For PY 2009, there were 5,036 former enrollee placements and 34,169
         graduates. Total program funding equaled $1.68 billion. As a result, the cost per
         these successful outcomes averaged $42,952 ($1.68 billion/(5,036 former
         enrollee placements + 34,169 graduates)).26

     	 Cost per single Common Measure performance outcome ($76,574). A third
        option links a single Common Measure performance outcome, such as job
        placement, regardless of job training match, to total program costs. For PY 2009,
        there were 21,991 job placements. Total program funding equaled $1.68 billion.
        As a result, the cost per job placement averaged $76,574 ($1.68 billion/21,991
        job placements).27

Despite the conclusions and recommendations cited by OMB, GAO, and consultants
hired by both Job Corps and ETA, Job Corps has not modified its approach for
calculating cost efficiency and continues to use the cost per participant metric. Job
Corps did not agree that alternate metrics would provide a better indication of the
program’s ability to manage costs. Job Corps asserted that its cost per participant
metric was designed to express the level of resources dedicated to providing each
student with academic, career technical training, and post-enrollment services; and that
using a cost per utilized training slot metric would distort cost efficiency. In addition, Job
Corps indicated it appropriately excluded program administration costs and used
appropriations in its metric calculations because administration funding was ancillary to
the delivery of services to students and 100 percent of appropriations were inevitably
obligated and outlayed. Furthermore, Job Corps asserted the use of performance data
in cost efficiency metrics significantly distorts the program’s use of resources. For
example, a cost per successful outcome metric would only consider the costs and not
the actual services, such as job search assistance that Job Corps is legislatively
mandated to provide students who are not placed in a job or post-secondary education.
While we acknowledge such services would not be reflected in this metric, the
program’s effectiveness is currently assessed based on its ability to achieve certain
performance outcomes as defined by WIA, the Common Measures, and OMB (e.g.,
employment, education, and job training match placements). Therefore, we affirm the
value in knowing the costs associated with these outcomes. As such, Job Corps did not
provide any additional information to cause us to change our conclusions.



25
   WIA defined former enrollees as individuals who enrolled in Job Corps, but left before completing their vocational
training, or attaining a HSD or GED, as a result of participation in the Job Corps program. Graduates are defined as
individuals who enrolled in Job Corps and completed their vocational training, or attained a HSD or GED, as a result
of participation in the Job Corps program. Job Corps limited the WIA definition to include only those individuals who
met these requirements; stayed in the program 60 or more days; and did not separate for violating Job Corps’ Zero
Tolerance (ZT) conduct policy.
26
   Calculation was based on PY 2009 data provided in Job Corps’ MPO-36 management report and Job Corps’
Congressional Budget Justifications for FY 2010 and 2011. Numbers do not add exactly due to rounding.
27
   Ibid.

                                 Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                     16                       Report No. 26-11-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


Four Metrics Lacked Reported Results and/or Established Targets

With regards to targets and results, three metrics did not have reported results and
established targets (graduate attainment of job readiness and employability skills,
graduate average wage at 12 months after initial placement, and graduate placement in
unsubsidized employment of less than 20 hours per week) and one metric did not have
a target (average length of stay). Measureable targets and reported results are essential
feedback mechanisms to identify performance gaps, set improvement goals, and
improve results. Job Corps agreed that three of its metrics did not have reported results
and established targets. Job Corps did not agree that it needed to establish a target for
the fourth metric – average length of stay – even though Job Corps told us it has taken
steps in recent years to increase student length of stay in the program, as this leads to
more positive outcomes for students. Specifically, the longer a student stays in the
program, the more likely students will obtain a HSD or GED certificate, or complete their
vocational training. As such, we affirm our conclusion regarding the need for
performance targets to improve performance for this metric. See Exhibit 1 for details.

Performance Results for 19 of 25 WIA Metrics Were Not Published and Publicly
Available as Job Corps Asserted

In 2009, our work showed Job Corps did not annually report the related performance
results for each Job Corps center to Congress as stipulated by WIA. While Job Corps
acknowledged the results were not submitted to Congress, Job Corps asserted that all
of the required information on the program’s performance and outcomes were published
and publicly available. In addition to reviewing the key attributes of successful
performance measures, we reviewed each of Job Corps’ 25 WIA mandated
performance metrics to determine whether the corresponding results were published
and publicly available as asserted.

We found 19 of 25 WIA mandated performance results were not published or publicly
available. See Exhibit 1 for details. For example, special data runs were required to
extract the results for the WIA mandated performance metrics of number of graduates
who entered unsubsidized employment and were retained in the unsubsidized
employment 6 months and 12 months after the first day of enrollment. These results
were not published or publicly available, but were embedded in other metrics designed
to measure 6 and 12 month retention in all placements including post-secondary
education and training. Job Corps partially agreed that 19 metrics were not publicly
reported as asserted in response to our prior audit report because some of the required
performance data was rolled up into other reported performance metrics. In its
response, Job Corps told us it is developing an annual report for submission to the
Congress that will contain all of the required WIA performance results for PY 2010.




                         Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                             17                       Report No. 26-11-004-03-370
                                                U. S. Department of Labor – Office of Inspector General


Long-Standing Concerns Persist Despite Spending $1.46 Million on Consultants and an
Advisory Committee

Concerns over Job Corps’ metrics persist because Job Corps has not placed significant
emphasis on addressing the known deficiencies our audit confirmed and implementing
the necessary improvements so that its metrics effectively assess the program’s
performance. For example, Job Corps did not accept its contractor’s recommendations
to develop a cost efficiency metric that reflected cost per successful outcome from a
report issued in December 2008 because it ultimately found their findings to be
inappropriate or too costly to implement. Had Job Corps acted on the consultant’s
recommendations, some of our concerns would have been addressed. Since 2007,
DOL has spent $1.46 million on consultants and an advisory committee to improve its
performance metrics and outcomes, as well as other aspects of the program. In 2010,
DOL awarded contracts to more consultants to evaluate the program, including its
performance measurement system, at a cost of $748,846.28 See Exhibit 2 for details.
Job Corps disagreed with our conclusion and stated that the work conducted by these
entities is beneficial, and worth paying for, even if the final recommendations are not
always implemented. We believe the scope of work contracted for and conducted by
consultants should be managed appropriately to maximize value, ensure such
investments work as planned, and result in meaningful improvements.

In total, we identified $61.18 million in funds put to better use if Job Corps improves
oversight of its service providers to increase the number of students who find
employment that relate to and utilize the vocational training received. This includes
$1.65 million Job Corps would spend to more effectively place students in jobs that
relate to the vocational training received and $59.53 million Job Corps would spend on
students obtaining jobs as a result of the recruiting, training, and placement efforts
provided by Job Corps.

ETA Response to Draft Report

In response to our draft report, ETA stated it will take responsibility for the job training
matches found to be invalid and will assess liquidated damages to the responsible
contractors. However, ETA incorrectly concluded that the majority of our concerns were
related to Job Corps’ PY 2009 crosswalk and were resolved by its October 2010
crosswalk. As indicated in our report, our testing identified problems with the matches
considered acceptable by Job Corps in the crosswalks for both periods. To determine
whether Job Corps had taken the necessary actions to address prior deficiencies, we
reviewed Job Corps outcomes for PY 2009 and the month of October 2010 against the
applicable crosswalks and policies. We found the exception rates for both PY 2009
(18.1 percent) and October 2010 (18.1 percent) remained unchanged. For example, Job
Corps’ PY 2009 and revised October 2010 crosswalks continued to allow matches such
as hotel/motel service industry students placed as ticket sellers at movie theaters that
were questioned 15 years ago by GAO.

28
 During the time of the audit, DOL paid $374,423 of these contract awards. This amount was included in the
calculation of $1.46 million spent since 2007.

                                Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                    18                       Report No. 26-11-004-03-370
                                                U. S. Department of Labor – Office of Inspector General



ETA disagreed its job training matches were overstated because of military (3.9
percent) and educational (21.2 percent) placements. With regards to military
placements, ETA indicated it had a process to identify suitable positions in the military,
prior to a graduate’s enlistment that included the use of a “clock hours” form that was
developed by ETA and the military to validate Job Corps training. While we
acknowledge this process can be used to help identify suitable positions in the military,
this process did not include verifying whether students were actually placed in positions
and performed duties that related to their vocational training after they joined the
military. In addition, ETA continued to assert that placements in non-jobs, such as
educational and training enrollments, should be included in its job training match results
because it was recommended by the Secretary’s Advisory Committee on Job Corps.

ETA did not agree that placements in jobs that required little or no training was a poor
use of resources. ETA again cited the limitations of the O*NET classifications used by
Job Corps, the many barriers Job Corps students face, and the economic recession. As
previously noted, we acknowledged the limitations of the O*NET classifications and
significant barriers many students face and adjusted our testing accordingly. ETA also
indicated that it did not state that “achieving and maintaining a basic entry level job at
the end of the Job Corps experience is a crowning achievement for most students.” This
statement was provided in writing to us in response to our discussion draft report.

This report includes a revised estimate of funds put to better use for students placed in
jobs that required little or no training, as recommended by Job Corps. The estimate is
based on the liquidated damages amount of ($750) specified in Job Corps’ PRH for
invalid placements. While we do not consider these placements to be invalid, we agreed
to use this lower amount to calculate the funds put to better use.

ETA also incorrectly stated that we had concluded in Exhibit 1 that metrics 49 and 50
were unpublished and not publicly available even though these metrics can be found on
Job Corps’ public website. We did not test or conclude on whether metrics 26 through
58 were published or publicly available [refer to Exhibit 1, footnote b.]

With regard to cost efficiency, ETA asserted that we incorrectly reported: 1) Job Corps
uses a cost efficiency metric, 2) it is entitled “cost per participant,” and 3) it is in line with
ETA’s efficiency measure guidance for reporting cost efficiency. We disagree. Job
Corps represented in correspondence to us that it reports its annual cost per participant
to Congress as the average cost per new enrollee and that this metric was in line with
ETA’s efficiency measure guidance as outlined in ETA Training and Guidance Letter 15-
03.29 In addition, Job Corps used cost efficiency, cost per participant, and cost per new
enrollee interchangeably in Job Corps’ Congressional Budget Justifications for 2009-
2011. Further, Job Corps acknowledged its cost efficiency metric was inadequate in
response to OMB’s assessment in 2007 and contracted with a technical expert to
propose modifications to its cost efficiency metric. To clarify, we replaced the term “new
participant” used in the report with “new enrollee.” We acknowledge and have cited the
29
     ETA Training and Employment Guidance Letter No. 15-03, page 14 (December 10, 2003).

                                  Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                      19                       Report No. 26-11-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


challenges of developing efficiency metrics. The development and implementation of
alternate efficiency metrics is a management decision. However, our work confirmed
that use of efficiency metrics that reflect outcomes and total program costs could
provide decision-makers with information to better measure and manage the program’s
performance and costs.

ETA did not agree the work conducted by its consultants and the Secretary’s Advisory
Committee on Job Corps should have been managed more appropriately. ETA did not
provide any new information to change our conclusions. As such, we affirm our
conclusion that the work contracted for and conducted by consultants should have been
managed more appropriately.

With the exception of the revision related the calculation of funds put better use, ETA
did not provide any new information that would change the conclusions stated in the
report.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training require Job
Corps to:

1. Review and improve its performance metrics to provide decision-makers with useful
   and reliable information to make informed decisions regarding the program’s
   performance and costs. This includes ensuring metrics are complete and accurate,
   comply with WIA, and have reported results and established targets.

2. Improve oversight of its service providers to increase the number of students who
   find employment that relate to and utilize the vocational training received.

3. Develop a process to ensure the scope of work contracted for and conducted by
   consultants is managed appropriately to maximize value, ensure such investments
   work as planned, and result in meaningful improvements.

We appreciate the cooperation and courtesies that Job Corps personnel extended to
the Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix [F].




Elliot P. Lewis
Assistant Inspector General
for Audit




                         Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                             20                       Report No. 26-11-004-03-370
                          U. S. Department of Labor – Office of Inspector General




Exhibits 





             Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                 21                       Report No. 26-11-004-03-370
             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





Job Corps Needs to Improve Reliability of Performance Metrics and Results
                    22                       Report No. 26-11-004-03-370
                                            U. S. Department of Labor – Office of Inspector General


                                                                                             Exhibit 1
Analysis of Job Corps’ 58 Performance Metrics

Job Corps relied on 58 performance measures to address the program’s multiple
performance reporting requirements mandated by WIA, the Common Measures, the
GPRA, OMB, DOL, and Job Corps. Exhibit 1 shows the extent to which these measures
met the following attributes:

   	 Linkage to Goals. Metric was aligned with agency and program mission and
      goals.

   	 Complete and Accurate Results. Metric, by design, was consistent with
      mandated or internal performance measure requirements and produced the
      appropriate results.

   	 Target and Reported Results. Metric had a specific target and reported results
      that were quantifiable and measurable to fully evaluate progress toward expected
      performance.

Of the 58 metrics, 25 were required by WIA. We tested these 25 WIA-required metrics
to determine whether the performance results were published and publicly available as
asserted by Job Corps in response to our prior work.

                                       Complete Target Published
                               Linkage   and      and      and
 Performance Metric               to   Accurate Reported Publicly                 Description of
 [Source]                       Goals   Results Resultsa Availableb              Audit Deficiencies
 1. Number of graduates            X          X            X           X
 and the rate of such
 graduation, analyzed by
 type of vocational training
 received through the Job
 Corps program and by
 whether the vocational
 training was provided by
 a local or national service
 provider [WIA §
 159(c)(1)A].
 2. Number of graduates            X                       X                    Job Corps’ metric, by
 who entered                                                                    design, incorrectly
 unsubsidized                                                                   included jobs that did
 employment related to                                                          not or poorly related
 the vocational training                                                        to the training
 received through the Job                                                       received, as well as
 Corps program and by                                                           military enlistments,
 whether the placement in                                                       non-jobs (education


                               Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                   23                       Report No. 26-11-004-03-370
                                          U. S. Department of Labor – Office of Inspector General



                                     Complete Target Published
                             Linkage   and      and      and
Performance Metric              to   Accurate Reported Publicly                 Description of
[Source]                      Goals   Results Resultsa Availableb              Audit Deficiencies
the employment was                                                            and training), and
conducted by a local or                                                       volunteer service,
national service provider                                                     without regard to the
[WIA § 159(c)(1)B].                                                           students’ training and
                                                                              assigned duties.
                                                                              Results were not
                                                                              published and
                                                                              publicly available as
                                                                              asserted.
3. Number of graduates           X                       X                    This metric is
who entered                                                                   inaccurate and
unsubsidized                                                                  incomplete by default
employment not related                                                        for the inclusion of job
to the vocational training                                                    placements which do
received through the Job                                                      not or poorly relate to
Corps program and by                                                          training in No. 2
whether the placement in                                                      described above.
the employment was                                                            Results were not
conducted by a local or                                                       published and
national service provider                                                     publicly available as
[WIA § 159(c)(1)B].                                                           asserted.
4. Average wage                 X                        X                    Job Corps metric, by
received by graduates                                                         design, incorrectly
who entered                                                                   included jobs that did
unsubsidized                                                                  not or poorly related
employment related to                                                         to the training
the vocational training                                                       received, as well as
received through the Job                                                      military enlistments
Corps program [WIA §                                                          without regard to the
159(c)(1)C].                                                                  students’ training and
                                                                              assigned duties.
                                                                              Results were not
                                                                              published and
                                                                              publicly available as
                                                                              asserted.
5. Average wage                 X                        X                    This metric is
received by graduates                                                         inaccurate and
who entered                                                                   incomplete by default
unsubsidized                                                                  for the inclusion of job
employment not related                                                        placements which do
to the vocational training                                                    not or poorly relate to
received through the Job                                                      training in No. 4
Corps program [WIA §                                                          described above.


                             Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                 24                       Report No. 26-11-004-03-370
                                           U. S. Department of Labor – Office of Inspector General



                                      Complete Target Published
                              Linkage   and      and      and
Performance Metric               to   Accurate Reported Publicly                 Description of
[Source]                       Goals   Results Resultsa Availableb              Audit Deficiencies
159(c)(1)C].                                                                   Results were not
                                                                               published and
                                                                               publicly available as
                                                                               asserted.

6. Average wage                   X          X            X           X
received by graduates
placed in unsubsidized
employment after
completion of the Job
Corps program on the
first day of the
employment analyzed by
type of vocational training
received through the Job
Corps program [WIA §
159(c)(1)D(i)].
7. Average wage                   X          X            X           X
received by graduates
placed in unsubsidized
employment after
completion of the Job
Corps program 6 months
after the first day of the
employment analyzed by
type of vocational training
received through the Job
Corps program [WIA §
159(c)(1)D(ii)].
8. Average wage                   X          X                                 Metric did not have a
received by graduates                                                          result or an
placed in unsubsidized                                                         established target.
employment after                                                               Results were not
completion of the Job                                                          published and
Corps program 12                                                               publicly available as
months after the first day                                                     asserted.
of the employment,
analyzed by type of
vocational training
received through the Job
Corps program [WIA §
159(c)(1)D(iii)].




                              Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                  25                       Report No. 26-11-004-03-370
                                          U. S. Department of Labor – Office of Inspector General



                                     Complete Target Published
                             Linkage   and      and      and
Performance Metric              to   Accurate Reported Publicly                 Description of
[Source]                      Goals   Results Resultsa Availableb              Audit Deficiencies
9. Number of graduates           X          X            X                    Results were not
who entered                                                                   published and
unsubsidized                                                                  publicly available as
employment and were                                                           asserted, but were
retained in the                                                               obtained through a
unsubsidized                                                                  special data run.
employment 6 months
after the first day of the
employment [WIA §
159(c)(1)E(i)].
10. Number of graduates          X          X            X                    Results were not
who entered                                                                   published and
unsubsidized                                                                  publicly available as
employment and were                                                           asserted, but were
retained in the                                                               obtained through a
unsubsidized                                                                  special data run.
employment 12 months
after the first day of the
employment [WIA §
159(c)(1)E(ii)].
11. Number of graduates         X           X            X           X
who entered
unsubsidized
employment for 32 hours
per week or more [WIA §
159(c)(1)F(i)].
12. Number of graduates         X           X            X                    Results were not
who entered                                                                   published and
unsubsidized                                                                  publicly available as
employment for not less                                                       asserted, but were
than 20 but less than 32                                                      obtained through a
hours per week [WIA §                                                         special data run.
159(c)(1)F(ii)].
13. Number of graduates         X           X                                 Metric did not have
who entered                                                                   result or an
unsubsidized                                                                  established target.
employment for less than                                                      Results were not
20 hours per week [WIA                                                        published and
§ 159(c)(1)F(iii)].                                                           publicly available as
                                                                              asserted.




                             Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                 26                       Report No. 26-11-004-03-370
                                         U. S. Department of Labor – Office of Inspector General



                                    Complete Target Published
                            Linkage   and      and      and
Performance Metric             to   Accurate Reported Publicly                 Description of
[Source]                     Goals   Results Resultsa Availableb              Audit Deficiencies
14. Number of graduates         X          X            X                    Results were not
who entered                                                                  published and
postsecondary education                                                      publicly available as
or advanced training                                                         asserted, but were
programs, including                                                          obtained through a
apprenticeship programs,                                                     special data run.
as appropriate [WIA §
159(c)(1)G].
15. Number of graduates         X          X                                 Metric did not have a
who attained job                                                             result or an
readiness and                                                                established target.
employment skills [WIA §                                                     Results were not
159(c)(1)H].                                                                 published and
                                                                             publicly available as
                                                                             asserted.
16. Number of enrollees         X          X            X                    Results were not
retained in the Job Corps                                                    published and
program for 30 days after                                                    publicly available as
initial placement in the                                                     asserted, but were
program [WIA §                                                               included in an internal
159(c)(2)].                                                                  management report.
17. Number of enrollees         X          X            X                    Results were not
retained in the Job Corps                                                    published and
program for 60 days after                                                    publicly available as
initial placement in the                                                     asserted, but were
program [WIA §                                                               included in an internal
159(c)(2)].                                                                  management report.
18. Number of enrollees         X          X            X           X
served [WIA § 159(d)(1)].
19. Average level of            X          X            X           X
learning gains for
graduates and former
enrollees [WIA §
159(d)(2)].
20. Number of former            X          X            X                    Results were not
enrollees and graduates                                                      published and
who entered the armed                                                        publicly available as
forces [WIA § 159(d)(3)].                                                    asserted, but were
                                                                             included in an internal
                                                                             management report.



                            Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                27                       Report No. 26-11-004-03-370
                                          U. S. Department of Labor – Office of Inspector General



                                     Complete Target Published
                             Linkage   and      and      and
Performance Metric              to   Accurate Reported Publicly                 Description of
[Source]                      Goals   Results Resultsa Availableb              Audit Deficiencies
21. Number of former             X          X            X                    Results were not
enrollees who entered                                                         published and
postsecondary education                                                       publicly available as
[WIA § 159(d)(4)].                                                            asserted, but were
                                                                              obtained through a
                                                                              special data run.
22. Number of former             X                       X                    Metric, by design,
enrollees who entered                                                         does not provide
unsubsidized                                                                  accurate and
employment related to                                                         complete results
the vocational training                                                       because former
received through the Job                                                      enrollees have not
Corps program [WIA §                                                          completed vocational
159(d)(5)].                                                                   training. Results were
                                                                              not published and
                                                                              publicly available as
                                                                              asserted.
23. Number of former            X                        X                    Metric, by design,
enrollees who entered                                                         does not provide
unsubsidized                                                                  accurate and
employment not related                                                        complete results
to the vocational training                                                    because former
received through the Job                                                      enrollees have not
Corps program [WIA §                                                          completed vocational
159(d)(5)].                                                                   training. Results were
                                                                              not published and
                                                                              publicly available as
                                                                              asserted.
24. Number of former            X                        X                    Metric, by design,
enrollees and graduates                                                       incorrectly includes
who obtained a                                                                former enrollees who
secondary school                                                              have not attained
diploma or its recognized                                                     their HSD or GED
equivalent [WIA §                                                             certificate through
159(d)(6)].                                                                   Job Corps. Results
                                                                              were not published
                                                                              and publicly available
                                                                              as asserted.
25. Number and                  X           X            X                    Results were not
percentage of dropouts                                                        published and
from the Job Corps                                                            publicly available as
program including the                                                         asserted, but were
number dismissed under                                                        included in an internal

                             Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                 28                       Report No. 26-11-004-03-370
                                         U. S. Department of Labor – Office of Inspector General



                                    Complete Target Published
                            Linkage   and      and      and
Performance Metric             to   Accurate Reported Publicly                 Description of
[Source]                     Goals   Results Resultsa Availableb              Audit Deficiencies
the zero tolerance policy                                                    management report.
described in section
152(b) [WIA § 159(d)(7)].
26. Student attainment of       X          X            X
a degree, GED, or
certificate rate [Common
Measure].
27. Student placement in        X          X            X
employment or education
[Common Measure].
28. Percentage of               X          X            X
students who achieve
literacy or numeracy
gains of one adult basic
education level [Common
Measure].
29. Cost per new enrollee       X                       X                    Inaccurate and
[Common Measure].                                                            incomplete for not
                                                                             reflecting outcomes,
                                                                             excluding program
                                                                             administrative
                                                                             appropriations, and
                                                                             using appropriated
                                                                             funds in place of
                                                                             actual costs.
30. Percent of Job Corps        X          X            X
students who attain
industry recognized
credentials [Job Corps’
PRH Appendix 501(a)].c
31. Average wage of             X          X            X
participants at initial
placement [FY 2010
Performance Agreement].
32. CTT completion rate         X          X            X
[PRH Appendix 501(a)].
33. CTT completer               X          X            X
placement rate [PRH
Appendix 501(d)].



                            Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                29                       Report No. 26-11-004-03-370
                                          U. S. Department of Labor – Office of Inspector General



                                     Complete Target Published
                             Linkage   and      and      and
Performance Metric              to   Accurate Reported Publicly                 Description of
[Source]                      Goals   Results Resultsa Availableb              Audit Deficiencies
34. CTT completer                X          X            X
average hourly wage at
placement [PRH
Appendix 501(d)].
35. CTT completer full-          X          X            X
time job placement rate
[PRH Appendix 501(d)].c
36. CTT completer                X          X            X
industry recognized
credential attainment rate
[PRH Appendix 501(d)].c
37. CTT completer job            X          X            X
training match average
wage [PRH Appendix
501(d)].
38. CTT completer job            X                       X                    Job Corps’ metric, by
training match/post                                                           design, incorrectly
secondary education                                                           included jobs that did
placement rate [PRH                                                           not or poorly related
Appendix 501(c)].                                                             to the training
                                                                              received, as well as
                                                                              military enlistments
                                                                              and volunteer service,
                                                                              without regard to the
                                                                              students’ training and
                                                                              assigned duties.
39. CTT completer 6              X          X            X
month follow-up
placement rate [PRH
Appendix 501(d)].
40. CTT completer 12             X          X            X
month follow-up
placement rate [PRH
Appendix 501(d)].
41. CTT completer 6              X          X            X
month follow-up average
weekly wage of
placements [PRH
Appendix 501(d)].
42. Combination                  X          X            X


                             Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                 30                       Report No. 26-11-004-03-370
                                           U. S. Department of Labor – Office of Inspector General



                                      Complete Target Published
                              Linkage   and      and      and
Performance Metric               to   Accurate Reported Publicly                 Description of
[Source]                       Goals   Results Resultsa Availableb              Audit Deficiencies
HSD/GED/CTT
attainment rate [PRH
Appendix 501(a)]. c
43. Female arrival rate           X          X            X
[PRH Appendix 501(b)].
44. Total arrival rate            X          X            X
[PRH Appendix 501(b)].
45. Arrivals with Level 1         X          X            X
ZT non-separation rate
[PRH Appendix 501(b)].
46. Arrivals with 90 day          X          X            X
commitment [PRH
Appendix 501(b)].
47. Graduate rate [PRH            X          X            X
Appendix 501(b)]. c
48. Graduate initial              X          X            X
placement rate [PRH
Appendix 501(a)].
49. Student on-board              X          X            X
strength [PRH Appendix
501(a)].
50. Average length of             X          X                                 Metric did not have
stay [Job Corps Quarterly                                                      an established target.
Highlights Report].                                                            While the metric is
                                                                               not required to have
                                                                               an established target,
                                                                               OIG analysis found
                                                                               having a reported
                                                                               result and established
                                                                               target is a key
                                                                               attribute of successful
                                                                               performance
                                                                               measures.
51. Center quality rating         X          X            X
[PRH Appendix 501(a)].
52. Former enrollee initial       X          X            X
placement [PRH
Appendix 501(c)].c



                              Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                  31                       Report No. 26-11-004-03-370
                                                     U. S. Department of Labor – Office of Inspector General



                                             Complete Target Published
                                     Linkage   and      and      and
    Performance Metric                  to   Accurate Reported Publicly                       Description of
    [Source]                          Goals   Results Resultsa Availableb                    Audit Deficiencies
    53. Average literacy gain             X              X             X
    [PRH Appendix 501(a)].
    54. Average numeracy                  X              X             X
    gain [PRH Appendix
    501(a)].
    55. HSD / GED                         X              X             X
    attainment rate [PRH
    Appendix 501(a)].
    56. CTT completion rate               X              X             X
    [PRH Appendix 501(d)].
    57. Graduates of green                X              X             X
    training programs [FY
    2010 Performance
    Agreement].
    58. Post-enrollment                   X              X             X
    placement rate [PRH
    Appendix 501(a)].
    Totals                                58             49           54                 6

                                                   Summary Analysis
      58 of 58 metrics linked to goals
      9 of 58 metrics did not have complete and accurate results. See metric nos. 2, 3, 4, 5, 22,
       23, 24, 29, and 38. Five of these nine metrics related to job training match (four) [nos. 2, 4,
       22, and 38] and cost-efficiency (one) [no. 29].
      4 of 58 Metrics did not have reported results and/or established targets. See metric nos. 8,
       13, 15, and 50.
      19 of 25 WIA metrics did not have results published and publicly available. See metric nos.
       2, 3, 4, 5, 8, 9, 10, 12, 13, 14, 15, 16, 17, 20, 21, 22, 23, 24, and 25.
      In aggregate, 22 of 58 metrics had reporting deficiencies. See nos. 2, 3, 4, 5, 8, 9, 10, 12,
       13, 14, 15, 16, 17, 20, 21, 22, 23, 24, 25, 29, 38, and 50.
      10 of 58 metrics had multiple reporting deficiencies. See metric nos. 2, 3, 4, 5, 8, 13, 15, 22,
       23, and 24.
Source: OIG analysis of Job Corps’ performance metrics. 

X Indicates metric met the attribute. 

a
 WIA required Job Corps establish 17 core performance metrics (see nos. 1-17) and collect data on 8 additional 

performance areas (see nos. 18-25). Since WIA did not require metrics for these additional performance areas, we

did not determine whether quantifiable targets were established. Source: WIA §159(C)(3)(d). 

b
    This attribute is only applicable for the 25 WIA metrics (see metrics 1 – 25).   

c
    Job Corps started reporting this metric in PY 10.


                                     Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                         32                       Report No. 26-11-004-03-370
                                                  U. S. Department of Labor – Office of Inspector General


                                                                                                      Exhibit 2
Job Corps Expenses for Prior and On-going Performance Measurement
Evaluations

Since 2007, DOL has spent $1.46 million on consultants and an advisory committee to
improve its performance metrics and outcomes. In 2010, DOL awarded contracts to
more consultants to evaluate the program’s performance measurement system at a cost
of $748,846.b See details below.


Consultant                                             Scope of Work                                   Cost
Advisory Committee on            In August 2007, the Secretary of Labor formed an                    $630,994
Job Corps                        advisory committee to provide advice and
                                 recommendations related to policies, legislation, and
                                 regulations related to Job Corps. This included
                                 evaluating the program’s efficiency and performance
                                 measures. The committee included representatives
                                 from Job Corps contractors, Job Corps staff, organized
                                 labor, the Departments of Education and Health and
                                 Human Services, and the Deputy Secretaries of Labor,
                                 Agriculture, and Interior.
HeiTech Services, Inc.           Contract was awarded in 2007 to identify a cost
                                 efficiency metric based on successful program
                                 outcomes to measure cost and quality.                               450,000a
HeiTech Services, Inc.           Contract was awarded in 2007 to perform a
                                 comprehensive and objective review of Job Corps
                                 performance management system, including extensive
                                 analysis of data and reports generated through the
                                 outcome management system.
Mathematica Policy               Contract was awarded in 2010 to determine the                       374,423b
Research, Inc.                   association between center-level performance and
                                 center-level impacts, when accounting for participant
                                 characteristics, using previously collected performance
                                 data.
Impaq International,             Contract was awarded in 2010 to determine the factors
LLC                              that contribute to or impede the successful operation of
                                 the program.
Total Costs                                                                                         $1,455,417
Source: OIG analysis of Job Corps contracts and expenses.
a
    The award amount for both contracts totaled $450,000.
b
 The award amount for both the Mathematica Policy Research, Inc. contract ($49,946) and Impaq International, LLC
($698,900) totaled $748,846. During the time of the audit, DOL paid $374,423 of these contract awards. This amount
was included in the calculation of $1.46 million in funds spent since 2007.




                                   Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                       33                       Report No. 26-11-004-03-370
             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





Job Corps Needs to Improve Reliability of Performance Metrics and Results
                    34                       Report No. 26-11-004-03-370
                       U. S. Department of Labor – Office of Inspector General




Appendices 





          Job Corps Needs to Improve Reliability of Performance Metrics and Results
                              35                       Report No. 26-11-004-03-370
             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





Job Corps Needs to Improve Reliability of Performance Metrics and Results
                    36                       Report No. 26-11-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


                                                                                   Appendix A
Background

DOL, ETA oversees Job Corps, which administers and manages the Job Corps
program. This program’s mission is to help at-risk youth become more employable,
responsible, and productive citizens. The program annually provides education,
vocational training, and support services to approximately 60,000 students at 124
centers, residential and non-residential, located nationwide. Job Corps’ budget for PY
2009 and 2010 totaled approximately $3.39 billion ($1.68 billion for PY 2009 and $1.71
billion for PY 2010).

Job Corps established and uses a complex performance management system to meet
mandated and internal accountability priorities and assess the program’s effectiveness.
The system is comprised of 58 performance metrics developed to address the
program’s multiple performance reporting areas required by GPRA, WIA, President’s
Management Agenda (PMA), PART, the Common Measures, DOL, and Job Corps. See
Exhibit 1 for details. These various requirements and corresponding metrics provide the
basis for assessing the program’s performance and effectiveness, and establish
accountability for achieving results, such as placements in employment or post-
secondary education or training; cost efficiency; and attainment of a HSD or GED
certificate. Many of the results, which are shown in four report cards, are used to assess
the performance of Job Corps center operators and contracted service providers and
impact decisions about contract awards and renewals, incentive fees, and performance
bonuses: 1) outreach and admissions, 2) center, 3) career technical training, and 4)
career transition services. Job Corps intentionally distributes responsibility and
accountability across the various contracted service providers involved, as a means to
drive performance in meeting national reporting measures and holding these providers
accountable for their contractual obligations. Incentive fee and performance bonus
amounts are determined based on center operator and service providers’ aggregate
performance for each of the weighted measures on a report card exceeding
performance levels established by Job Corps.

In 1993, Congress passed GPRA to improve federal government management and
emphasize the achievement of federal program results rather than activities and
processes. GPRA required the development of performance plans with annual goals
and measures, as well as performance reports on prior year performance. These
performance plans included results-oriented annual goals linked to program activities
and indicators the agencies used to measure performance against the results-oriented
goals. Enacted after GPRA, the 1998 WIA increased focus on accountability and
contained core indicators of performance for Job Corps concerning recruitment,
education and placement rates, wages, and long-term outcomes of graduates after
initial placement. The PMA, initiated in 2001, and the PART, created in 2002,
emphasized specific requirements to develop program-level efficiency measures and
show annual improvements in efficiency. Under the PMA, Job Corps began the process
of moving toward reporting with one set of definitions, measures, and procedures
(Common Measures). Specifically, these measures included placement in employment


                         Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                             37                       Report No. 26-11-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


or higher education, attainment of a degree or certificate, literacy and numeracy gains,
and cost efficiency.




                         Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                             38                       Report No. 26-11-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


                                                                                   Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

        To what extent does Job Corps have metrics in place to assess the program’s
        performance?

Scope

This report reflects the audit work that was generally conducted at Job Corps
headquarters in Washington, D.C. Our scope covered Job Corps’ performance metrics
and outcomes for PY 2009 and the month of October 2010, and policies, procedures
and processes through March 7, 2011. Job Corps revised its job training match
crosswalk – criteria used to determine training-related placements – in October 2010.
We covered October 2010 to account for the impact on the related metrics and
outcomes.

The relationship between the populations and the testing performed and the kinds and
sources of evidence are fully described in the Methodology section below.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To accomplish our audit objective, we interviewed Job Corps management and staff at
Job Corps headquarters in Washington, D.C. and reviewed applicable laws, regulations,
and policies, including GPRA, WIA, PMA, PART, Common Measures, the PRH, and
Job Corps’ performance agreements, to gain an understanding of Job Corps’
requirements and processes for measuring and reporting program performance. We
also reviewed DOL’s strategic plan (2011-2016), financial report (2010), performance
report (2010), and performance and accountability report (2009). Based on our
understanding, we identified 58 performance metrics that were required and/or used by
Job Corps during the scope of our audit. See Exhibit 1.

In addition, we reviewed GAO guidance and reports regarding government agencies’
performance metrics and consulted with GAO management and senior analysts to gain
GAO’s perspective on performance measurement, including the key attributes for



                         Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                             39                       Report No. 26-11-004-03-370
                                               U. S. Department of Labor – Office of Inspector General


successfully measuring performance. GAO’s work identified a number of key attributes.
We selected three of these attributes to test.

Table A: Key Attributes of Successful Performance Measures
                                                                                       Potentially adverse
Attribute                 Definition                                                   consequences of not
                                                                                       meeting attribute
1. Linkage to goals       Measure is aligned with agency and program                   Behaviors and incentives
                          goals and mission.                                           created by measure do not
                                                                                       support achieving agency or
                                                                                       program goals or mission.


2. Complete and           Metric, by design, was consistent with                       Decision makers lack
Accurate Results          mandated or internal performance measure                     reliable and consistent data
                          requirements and produced the appropriate                    to effectively measure and
                          results.                                                     manage performance.

3. Target and             Metric had a specific target and reported                    Decision makers lack
Reported Results.         results that were quantifiable and measurable                essential feedback
                          to fully evaluate progress toward expected                   mechanisms to identify
                          performance.                                                 performance gaps, set
                                                                                       improvement goals and set
                                                                                       results.
Source: OIG analysis of GAO’s key attributes for successfully measuring performance.

We also reviewed prior OIG and GAO audit reports, evaluations conducted by DOL
consultants and Job Corps staff, and OMB’s PART assessment of Job Corps for prior
deficiencies; interviewed Job Corps, ETA, DOL Office of Policy Development and
Research officials, and OMB staff; and analyzed Job Corps data to identify relevant
concerns. We found long-standing concerns about the reliability of the metrics covering
two key performance areas – job training match, which is used to measure how
effectively participants are placed in jobs that match the training they received in Job
Corps, and cost efficiency, which is used to measure program costs. As a result, we
assessed corrective actions and determined the impact on the related performance
metrics.

Of the 58 metrics, 25 were required by WIA. We tested these 25 WIA-required metrics
to determine whether the performance results were published and publicly available as
asserted by Job Corps in response to our March 2009 audit report.

At Job Corps headquarters, we identified and evaluated Job Corps internal controls
over its performance metric system. We assessed risks related to inaccurate results and
evaluated the corresponding control environment. We assessed the reliability of related
data for the applicable audit period and determined the data was sufficiently reliable to
accomplish our audit objective. We used a statistical sampling approach to select
certain metric results.


                                Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                    40                       Report No. 26-11-004-03-370
                                       U. S. Department of Labor – Office of Inspector General


Attribute Testing

We evaluated each of Job Corps 58 performance metrics to determine whether they
met the following attributes: linkage, complete and accurate results, and measurable
target and results.

   	 Linkage. We reviewed for linkage between each metric and Job Corps and
      DOL’s goals and mission.

   	 Complete and accurate results. We reviewed each metric to determine
      whether the metric was designed to collect data or calculate the results in
      accordance (or consistently) with mandated or internal performance measure
      requirements. If the metric did not capture these results, we concluded the
      metric’s results were incomplete and/or inaccurate. For example, WIA required
      Job Corps to measure how effectively the program placed students in jobs that
      related to the training received. If the metric, by design, did not capture this
      information or the results contained information for unrelated jobs or non-jobs, we
      considered the results incomplete and inaccurate.

   	 Target and reported results. Where appropriate, we determined whether each
      metric had quantifiable targets and reported results. Some of the WIA required
      performance metrics did not require targets. We considered instances where
      multiple performance metrics were embedded in a single metric acceptable, if the
      required results could be appropriately extracted. We also considered results
      generated through special data runs that were not available in published reports
      acceptable.

Job Training Match

WIA required Job Corps to measure and report how effectively participants are placed
in jobs that match the vocational training they received in the program. In 1997, GAO
reported the program’s job training match metrics were flawed because performance
results included jobs that (1) did not relate, or poorly related, to the training received or
(2) required relatively little training. In 1998, GAO also questioned Job Corps’ policy for
counting any participant that enlisted in the military as a successful job training match,
regardless of the student’s vocational training and assigned duties.

We found the 2009 and 2010 crosswalks continued to include jobs that (1) did not
relate, or poorly related, to the training received and/or (2) required relatively little
training to perform. The crosswalks for both periods also continued to provide automatic
job training matches for all military enlistments, as well as enrollments in post-
secondary education or training and volunteer service with AmeriCorps without regard
to the vocational training received or the actual duties performed. As a result, we
performed additional audit procedures to determine the impact of these deficiencies on
Job Corps’ job training match outcomes for PY 2009 and October 2010.



                          Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                              41                       Report No. 26-11-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


According to Job Corps’ records (MPO-36 reports, internally generated management
reports), Job Corps reported an aggregate of 17,787 job training matches for PY 2009
(16,234) and October 2010 (1,553). We obtained the databases Job Corps provided to
support these matches, which included each student’s vocational training, placement
employer, placement position title, and O*NET-SOC code used to make placement. To
address these long-standing concerns, we performed the following steps:

   	 Reviewed the supporting databases to determine whether vocational training
      appropriately related to each of the 17,787 job placements in accordance with
      WIA, based on the student’s place of employment, job position, and O*NET-SOC
      code, regardless of whether the matches were considered acceptable by Job
      Corps’ crosswalks. For example, we considered nursing assistant students
      employed as medical assistants, home health aides, or registered nurses
      appropriate job training matches. However, we questioned the validity of matches
      such as nursing assistant students placed as telephone operators, tax preparers,
      and transportation ticket agents, which were considered acceptable matches in
      the 2009 crosswalk. This review also included placements in the military, post-
      secondary education and training, and volunteer service in AmeriCorps.

   	 Reviewed the crosswalks for both periods and found 42 occupations that O*NET-
      SOC identified as needing little or no previous work-related skill, knowledge, or
      experience to perform. Given the significant academic, employability, and
      vocational barriers many Job Corps students face, we reduced these 42
      occupations to 15 occupations we determined needed the least amount of
      training to perform. These 15 occupations are detailed in Table 3.

In aggregate, we initially identified 2,380 job placements that did not relate or poorly
related to training received; 4,291 placements in the military, post-secondary education
and training, and volunteer service in AmeriCorps; and 1,468 placements in jobs
needing little or no previous work-related skill, knowledge, or experience to perform. To
reduce the number of overlapping results, our initial review did not include any jobs
needing little or no previous work-related skill, knowledge, or experience that also did
not relate or poorly related to the training received in our calculation of 2,380 job
placements. For example, if a construction student was employed at a fast food
restaurant or as a parking lot attendant, we only accounted for this deficiency as an
exception for jobs needing little or no previous work-related skill, knowledge, or
experience (1,468).

To address concerns raised by Job Corps that our database testing was not sufficient to
support some of these conclusions, we subsequently selected statistical, random
samples of 247 of 2,380 job placements that did not relate or poorly related to training
received and 276 of 1,468 placements in jobs needing little or no previous work-related
skill, knowledge, or experience and performed additional audit procedures to verify the
reliability of the data used to make these initial determinations. In response, Job Corps
provided required and supplemental documentation to substantiate the vocational
training the students received matched these job placements. Detailed documentation


                         Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                             42                       Report No. 26-11-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


reviewed included Job Corps’ placement assistance records used by contracted CTS
(i.e., placement) providers to record placement information including employer, job title,
and wage; third-party employment verification forms completed by employers at the
request of placement contractors; placement provider case notes; and other information
(e.g., written correspondence, job descriptions, job postings, and resumes), when
available. In aggregate, we found that the databases used to support our initial
determinations for our sample of 490 of 523 (247 + 276) job placements, or 94 percent,
were sufficiently reliable. We adjusted our results to account for the 33 job placements
that were considered valid.

Subsequent to our sample testing, we accounted for job placements that had
overlapping exceptions in both exception categories. Our sample testing also resulted in
a reassessment of a number of exceptions. For example, we initially considered an
office administration student placed as cashier as exception for placements that did not
relate or poorly related to the training received. However, if the additional
documentation indicated the student was placed as a cashier at a fast food restaurant,
we subsequently accounted for this exception in the exception category for jobs needing
little or no previous work-related skill, knowledge, or experience as well.

As a result, we found, in aggregate, 3,226 job placements did not relate or poorly
related to training received and 1,569 placements were in jobs needing little or no
previous work-related skill, knowledge, or experience to perform. These placements
were based upon our representative simple random samples that were estimated with
95 percent confidence level and assuming highest variance in the populations.

Cost Efficiency

Since 2007, OMB, a contractor hired by Job Corps, and GAO raised concerns about the
limitations of Job Corps use of cost per participant to measure cost efficiency and
recommended the use of cost efficiency metrics that link performance outcomes to
actual, total program costs rather than select appropriated costs. While Job Corps has
taken steps to improve its job training matches and explore alternate cost efficiency
metrics, we found these concerns persist, and Job Corps continues to use cost per
participant to measure the program’s cost efficiency. As a result, we performed
additional audit procedures to determine the impact of this deficiency on related
outcomes.

We obtained Job Corps’ appropriated funding (operation and construction funds of
$1.66 billion and administration funds of $28.66 million), estimated new enrollments
(62,344), and student training slots (44,455) from Job Corps’ FY 2011 Congressional
Budget Justification. We also obtained select performance outcomes by center for PY
2009 and October 2010 reported on Job Corps’ MPO-36 management reports, as we
were told by management this was the most comprehensive source for data as of our
cut off date and the data was relied upon by management, and reconciled these
outcomes to published year-end and monthly reports. As such, we determined the data
was sufficiently reliable to accomplish our objective.


                         Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                             43                       Report No. 26-11-004-03-370
                                       U. S. Department of Labor – Office of Inspector General


Based upon prior recommendations and the data we had available, we computed
alternate cost efficiency metrics that reflected the costs of successful outcomes (e.g.,
GED/HSD attainment, vocational training completion, job placement), as well as drop-
outs and compared the results to Job Corps’ cost per participant.

WIA Reporting

In response to our March 2009 report, Job Corps asserted that all of its 25 WIA
mandated performance metrics and outcomes were published and publicly available.
We reviewed all relevant, published Job Corps reports to determine whether the
corresponding results were included and publicly available. We considered instances
where multiple performance metrics were embedded in a single metric unacceptable,
even if the required results could be appropriately extracted. We also considered results
generated through special data runs that were not available in published reports
unacceptable.

Job Corps Expenses for Prior and On-going Performance Measurement Evaluations

We requested and obtained all costs associated with prior (since 2007) and on-going
DOL evaluations of Job Corps’ performance measurement system.

Criteria

We used the following criteria to perform this audit:

      WIA, 

      Common Measures, 

      GPRA, 

      PMA 

      PART, 

      PRH, 

      DOL and Job Corps’ goals and mission, 

      O*NET-SOC taxonomy, 

      GAO, GAO/GGD-96-118 (Washington, D.C.: June 1996), and 

      GAO, GAO 03-143 (Washington, D.C.: November 2002). 





                          Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                              44                       Report No. 26-11-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


                                                                                  Appendix C
Terminology



Term              Definition                                        Source

Enrollee          An individual who has voluntarily applied for,    WIA Section 142(3)
                  been selected for, and enrolled in the Job        20 Code of Federal
                  Corps program, and remains with the               Regulations (CFR) §
                  program, but has not yet become a graduate.       670.120
                                                                    Enrollees are also referred
                                                                    to as ‘‘students’’ in this
                                                                    part.
Former Enrollee   An individual who has voluntarily applied for,    WIA Section 142(4)
                  been selected for, and enrolled in the Job
                  Corps program, but left the program before
                  completing the requirements of a vocational
                  training program, or receiving a secondary
                  school diploma or recognized equivalent, as
                  a result of participation in the Job Corps
                  program.

                  One who has completed 60 or more days,            PRH Chapter 4.2 R1.b
                  has not attained graduate status, and whose
                  separation is for reasons other than a ZT
                  “Level One” infraction.

Graduate          An individual who has voluntarily applied,        WIA Section 142(5)
                  been selected, and enrolled in the Job Corps
                  program and has completed the requirements
                  of a vocational training program, or received
                  a secondary school diploma or recognized
                  equivalent, as a result of participation in the
                  Job Corps program.

                  An enrollee who has:                              20 CFR § 670.120

                  (1) Completed the requirements of a
                  vocational training program, or received a
                  secondary school diploma or its equivalent as
                  a result of participating in the Job Corps
                  program; and

                  (2) Achieved job readiness and employment
                  skills as a result of participating in the Job
                  Corps program.




                        Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                            45                       Report No. 26-11-004-03-370
                                  U. S. Department of Labor – Office of Inspector General




Term          Definition                                         Source

              One who has completed the requirements of          PRH Chapter 4.2 R1.a
              career technical training or earned a high
              school diploma or its equivalent (GED) while
              enrolled in Job Corps, or who completes
              both, and has completed 60 or more days
              enrollment. Students who have separated for
              “Level One” ZT infractions do not qualify.

Participant   An individual who has been determined to be        WIA Section 101(34)
              eligible to participate in and who is receiving
              services (except follow-up services
              authorized under this title) under a program
              authorized by this title. Participation shall be
              deemed to commence on the first day,
              following determination of eligibility, on which
              the individual began receiving subsidized
              employment, training, or other services
              provided under this title.

              An individual who has registered under 20       20 CFR § 660.300
              CFR 663.105 or 664.215 and has been
              determined to be eligible to participate in and
              who is receiving services (except for follow up
              services) under a program authorized by WIA
              title I. Participation commences on the first
              day, following determination of eligibility, on
              which the individual begins receiving core,
              intensive, training or other services provided
              under WIA title I.

Placements    Student employment, entry into the Armed           20 CFR § 670.120
              Forces, or enrollment in other training or
              education programs following separation from
              Job Corps.




                    Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                        46                       Report No. 26-11-004-03-370
                                  U. S. Department of Labor – Office of Inspector General




Term          Definition                                        Source

Educational   1. High school: no less than 20 hours in class    PRH Exhibit 4-1
Placements    per week for an expected duration of one
              semester or trimester or quarter; or

              2. Postsecondary career technical training or
              technical education program: no less than 20
              hours in class per week for an expected
              duration of at least 90 calendar days; or

              3. University/College: registered for no less
              than 9 credit hours per quarter or semester at
              a 2-year or 4-year university/college
              accredited by an agency recognized by the
              U.S. Department of Education or the Council
              for Higher Education Accreditation as an
              accrediting agency for higher education and
              that offers, at minimum, an associate’s
              degree; or

              4. Online University/College: registered for no
              less than 9 credit hours per quarter or
              semester at a 2-year or 4-year
              university/college accredited by an agency
              recognized by the U.S. Department of
              Education as an accrediting agency for
              distance education and that offers, at
              minimum, an associate’s degree; or

              5. On-the-job-training or other subsidized
              employment: no less than 20 hours per week;
              or

              6. Other training program: no less than 20
              hours in class per week for an expected
              duration of at least 90 calendar days.




                    Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                        47                       Report No. 26-11-004-03-370
                                    U. S. Department of Labor – Office of Inspector General




Term             Definition                                        Source

Job Placements   Full-Time: 1. 32 hours or more in one or two      PRH Exhibit 4-1
                 jobs in a 7-consecutive-day period; or

                 2. An apprenticeship job registered by the
                 Bureau of Apprenticeship and Training or a
                 state Apprenticeship Council, that combines
                 supervised, structured on-the-job training with
                 related theoretical instruction leading to
                 defined levels of skill and career
                 advancement, and where the student
                 receives a wage; or

                 3. Armed Forces: 40 hours minimum per
                 week active duty. This includes initial
                 Reserve Forces and National Guard training
                 but does not include weekend and summer
                 training sessions. Pre-enlistments are not
                 placements. The first 40- hour week must be
                 completed prior to 12 months after separation

                 Part-Time: 20 hours or more, but less than
                 32, in one or two jobs in a 7- consecutive-day
                 period.

Combination      Full-Time: 1. A combination of work and           PRH Exhibit 4-1
Job/College      university/college: a minimum of 16 hours
Placements       work at one job in a 7- consecutive-day
                 period and a minimum 6 credit hours per
                 quarter or semester at a 2-year or 4-year
                 university/college accredited by an agency
                 recognized by the U.S. Department of
                 Education or the Council for Higher
                 Education Accreditation as an accrediting
                 agency for higher education and that offers,
                 at minimum, an associate’s degree; or

                 2. A combination of work and online
                 university/college: a minimum of 16 hours
                 work at one job in a 7- consecutive-day
                 period and a minimum 6 credit hours per
                 quarter or semester at a 2-year or 4-year
                 college accredited by an agency recognized
                 by the U.S. Department of Education as an
                 accrediting agency for distance education
                 and that offers, at minimum, an associate’s
                 degree.


                       Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                           48                       Report No. 26-11-004-03-370
                                     U. S. Department of Labor – Office of Inspector General




Term             Definition                                         Source

                 Part-Time: University/college enrollment for a
                 minimum of 6 credit hours and a minimum of
                 10 hours work at one job per week.




School Dropout   An individual who is no longer attending any       WIA section 101(39)
                 school and who has not received a
                 secondary school diploma or its recognized
                 equivalent.

Separation       Means the action by which an individual            20 CFR § 670.120
                 ceases to be a student in the Job Corps
                 program, either voluntarily or involuntarily.

Student          An individual enrolled in the Job Corps.           20 CFR § 670.120

Uncommitted      One who has remained in Job Corps less             PRH Chapter 4.2 R1.c
Students         than 60 days (regardless of achievement), or
                 who has separated for a ZT “Level One”
                 infraction, per Chapter 3, Exhibit 3.1
                 (Infraction Levels and Appropriate Center
                 Actions).




                        Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                            49                       Report No. 26-11-004-03-370
                                    U. S. Department of Labor – Office of Inspector General




Term             Definition                                        Source

Zero Tolerance   Students who exit due to Level 1 ZT               PRH Appendix 501
                 infractions within 30/45 days are not included
                 in the Center Report Card. Students who exit
                 due to Level 1 ZT infractions after 30/45
                 days, however, are included in all pools for
                 on-center measures and credit will be given
                 for academic and CTT credentials earned
                 prior to exit.

                 However, since all students who exit due to
                 Level 1 ZT infractions, regardless of timing
                 (within or after 30/45 days), are not
                 considered former enrollees or graduates,
                 they are ineligible for post-center services
                 and are therefore excluded from all post-
                 center pools in both the Center and CTS
                 Report Cards.




                       Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                           50                       Report No. 26-11-004-03-370
                                    U. S. Department of Labor – Office of Inspector General


                                                                                Appendix D
Acronyms and Abbreviations

CFR           Code of Federal Regulations

CTS           Career Transition Services

CTT           Career Technical Training

DOL           Department of Labor

ETA           Employment and Training Administration

GAO           Government Accountability Office

GED           General Educational Development

GPRA          Government Performance and Results Act of 1993

HSD           High School Diploma

Job Corps     Office of Job Corps

OIG           Office of Inspector General

OMB           Office of Management and Budget

O*NET-SOC     Occupational Information Network’s Standard Occupational
              Classification System

PART          Program Assessment Rating Tool

PMA           President’s Management Agenda

PRH           Job Corps’ Policy and Requirements Handbook

PY            Program Year

WIA           Workforce Investment of 1988

ZT            Zero Tolerance




                      Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                          51                       Report No. 26-11-004-03-370
             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





Job Corps Needs to Improve Reliability of Performance Metrics and Results
                    52                       Report No. 26-11-004-03-370
                                             U. S. Department of Labor – Office of Inspector General


                                                                                                Appendix E
ETA Response to Draft Report


  U.S. Department of Labor                    Assistant Secretary for
                                              Employment and Training
                                              Washington. D.C. 20210




          SEP 29 2011

      MEMORANDUM FOR ELLIOT P. LEWIS
                     Assistant Inspector General

                               JANE OATES
                               Assistant Secretary for
                                                           (r'-
                                                            ..          ~

                               Employment and Training

                               DIG Audit of Job Corps Needs to Improve Reliability ofPerforrnance
                               Metrics and Results
                               Draft Report #26-11-004-03-370

      This memorandum responds to the subject draft audit report, dated September 23,2011 , Job
      Corps Needs to Improve Reliability ofPerfonnance Metrics and Results. We appreciate the
      opportunity to provide input to this draft audit report as well as to the recent discussion draft
      report and "statement of facts." The Employment and Training Administration (ETA), which
      manages and administers the Office of Job Corps (OIC), appreciates the Office of Inspector
      General's (OiG 's) efforts to identify areas in which the program's perfonnance metrics can be
      improved.

      First, ETA is committed to maintaining a sound performance metrics system for all of its
      programs, including Job Corps. We take great pride in the work we do on behalf of youth and
      adults across the nation, and our efforts fully support the Department's priorities to achieve
      "Good Jobs for E"eryone." We recognize that performance metrics are criticaJ in reflecting both
      program results and worthwhile taxpayer investment. The Job Corps program, in particular,
      serves youth in targeted. at-risk populations. For over four decades, Job Corps has made a
      difference in young people's lives by helping them gain academic and career technical training
      credentials, complemented by placement in employment, education, the military, and
      apprenticeship, with defined career paths that will lead them to economic self-sufficiency.

      As such, ETA takes responsibility for any invalid Job Training Matches (JTMs) identified by the
      DIG, which constitute the primary finding of this report. The OJC, in coordination with the ETA
      Office of Contracts Management (OCM), will assess liquidated damages to applicable
      contractors that have misreported these placements. However, ETA believes the vast majority of
      the DIG audit report misrepresents OJC's perfonnance management system, disregards the
      changes implemented to ensure reliability in perfonnance data (as the OIG audit was conducted
      using outdated policies and procedures), and, in some areas, is inaccurate. ETA officials,
      including representatives from the Offices of Job Corps, Policy, Development and Research, and
      Workforce Investment, met with the OIG and provided information on multiple occasions to
      substantiate and clarify ETA's and OJC's performance metrics systems.




                             Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                 53                       Report No. 26-11-004-03-370
                                        U. S. Department of Labor – Office of Inspector General




ETA's response is divided into four sections, to align with the items addressed in the report: Job
Training Match, Performance Metrics, Cost EfficieDcy Measures, aDd EvaluatioD.

Job Training Match
The OIG expressed three concerns with Job Corps' Job Training Match Metric: I) Invalid JTM
placements; 2) military and educational placements as JTMs; and 3) the placement of Job Corps
students in entry-level positions as a poor use of resources.

Invalid Job Training Matches
ETA takes responsibility for those JTMs that were found to be invalid and will assess liquidated
damages to the responsible contractors. However, ETA would like to reiterate that we have
taken steps to address this concern. As a result, over 90% of the placements audited by the OIG
were matched to training using policies that are no longer in place. The time period of the
majority of the OIG's JTM findings (PY 2009 and October 2010) covers the previous, now­
defunct JTM policy. As noted in the report, a new JTM Crosswalk was introduced to the Job
Corps system in October 20ID, approximately 30 days before the OIG audit began. Thus, some
of the PY 2009 JTM placements that were valid at that time would not have been misreported in
PY 2010. The OIG was made aware of this transition at the entrance meeting.

OJC and ETA have worked collaboratively for years to improve the crosswalk, which has had
updated versions since 2002. ETA had already identified weaknesses with the PY 09 version
and asked OJC and ETA's Office of Workforce lnvesUllent to better align Job Corps' crosswalk
with the Occupational Information Network's Standard Occupational Classification System
(O·NET-SOC). This newly-developed crosswalk substantially improves the fundamental
linkage between training and placement in two ways: 1) through its introduction of Training
Program Areas (TP As) to categorize both training and job activities; and 2) in its re-creation of
the entire crosswalk "from the ground up."

Many of the OIG's concerns regarding JTM matches have been resolved by the new crosswalk.
Certain codes, such as "cashier," are no longer used broadly, and greater levels of detail between
occupations are provided (i.e., carpenters are now treated separately from brick1ayers and
painters, as opposed to being grouped into "construction''). Additionally, current policy requires
that career transition services contractors attest to the vaJidity of each JTM credit in the
program's electronic career transition system. This enhancement is another safeguard to ensure
the data integrity of JTM placements.

Finally, the methodology used to calculate the cost of $1,196 to provide each student with
placement services is flawed. While dividing the tetaJ cost of career transition services by the
number of students receiving career transition services may result in a per student cost, not all of
those expenses are tied to a placement. Career transition specialists provide an array of services,
beyond placement, that assist students in transitioning into the workforce or higher education.
They assist in identifying housing and transportation resources, student financial aid and other
forms of assistance, and providing employability skills training, such as job interviewing skills
and resume building.




                                                                                                     2




                        Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                            54                       Report No. 26-11-004-03-370
                                        U. S. Department of Labor – Office of Inspector General


Military and Educational Placements as Job Training Matches
We disagree with the OIG's finding that JTMs are overstated by 25 .2% because of military and
educational placements. In our opinion, these are valid training matches. In accordance with
recommendations from the Secretary of Labor's Advisory Committee on Job Corps, which
submitted its final report to the Secretary in April 2008, mc began including placements in the
post-secondary institutions as JTMs. In addition to federal staff, the Secretary's Advisory
Committee consisted of members of industry, academia. labor unions, and non-profit
organizations. Ultimately, the Committee recommended expanding training matches beyond
traditional employment to incentivize placements that would lead Job Corps graduates to higher
wage employment

OJC worked with the military to develop a "clock hours" fonn that is accepted by all branches of
the Anned Forces to validate Job Corps training. This process includes reviewing Job Corps'
Training Achievement Records (TARs), which list the skills, knowledge, and industry­
recognized credentials a graduate gained upon completion of a training program, to identify
suitable positions in the military, prior to a graduate's enlistment. Although the OIG was
provided with both the fonn and sample TARs, the OIG disagrees that these are valid matches.

ETA also agrees with the Secretary's Advisory Committee that post-secondary placements are a
vaJid match to the training Job Corps graduates receive. Job Corps graduates' entry into post­
secondary institutions, especially community colleges, continues to rise, and should be
incentivized. In teaching students the values oflifelong learning and long-term career
advancement, counselors, teachers, and many other center staff emphasize the importance of
continuing education.

Given ETA's position on this issue, these placements are not considered an overstatement of
JTMs. Instead, ETA and the OIG have a difference of opinion on the policy defining JTMs.
Under current Job Corps policy, what the OIG considers "overstatements" are actually valid
training matches.

The Placement of Job Corps Students in Entry-Level Positions
We disagree with the OIG's finding that the placement of students in jobs that require little or no
training was a poor use of resources, because Job Corps was not a necessary intervention for
these placements. This finding dismisses key relevant points and discounts the value of the skills
achieved by our students. In fact, these students completed valid career technicaJ training
programs and received career transition readiness and employability skills instruction. Further,
this fmding fails to recognize:

    I. the needs and background of the typical Job Corps student in attaining and retaining
       employment are different than those of the "typical worker," which is the target audience
       for this broad O*NET definition;
    2. that entry-level positions are appropriate placements for workers first entering the
       workforce and are the initial step in a career pathway; and
    3. the adverse impact of the economic recession on the employment prospects of Job Cotps'
       demographic population.



                                                                                                  3




                        Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                            55                       Report No. 26-11-004-03-370
                                                U. S. Department of Labor – Office of Inspector General




A comprehensive review of Job Corps placement must begin with a solid undentanding of the
students served. The typical Job Corps student entering the program has not completed high
school, reads slightly below the Sib grade level, has never had a full·time job, is between 16 and
24 years old, and is from an economically disadvantaged family. Many students have significant
basic skills and behavioral deficiencies, lacking the skills and knowledge to gain and retain
employment. As. a result, Job Corps takes a holistic approach to education and training,
assessing each student's needs and designing essentially an individualized program or
intervention to address those needs.

For example, in the OIG sample, over 300 students had a documented disability. The lowest
entry level math score was a grade level equivalent (GLE) of 1.9 (less than second grade), with
the student achieving a final math assessment of 4.9 (less than fifth grade). Similar scenarios
were identified in the sample students' reading scores. mc asserts that these students certainly
did benefit from the program's training, and that funds were not misspent to place them in entry­
level jobs. FW1her, the 1,569 placements represent less than 10% of JTM placements and 5.9"10
of all PY 2009 graduate placements. Given the population that Job Corps serves, thls statistic is
more a testament of Job Corps' success than its shortcomings. The majority of graduates in this
sample maintained retention in employment or education 12 months after the initial placement.

Further, the economic recession in recent years impacted minority youth to a much greater
degree than other sectors of the population. As of August 2011 , the unemployment rate for
youth, ages 16-24, was over twice that of the national average of 9.1 percent. For African­
American males in thls age group, the unemployment rate jumps to almost 50%. This economic
downturn has resulted in Job Corps youth competing in today's workforce with adults of all skill
levels. Under these conditions, ETA disagrees with the OIG that vaJid placements in entry-level
jobs equates to wasteful spending.

Finally, ETA did not state that "achieving and maintaining a basic entry level job at the end of
the Job Corps experience is a crowning achievement for most students," but that "entering the
workforce and maintaining employment is a first step in a student's career pathway."

PerformaDce Metrics
ETA agrees with the OIG that 100% of Job Corps' perfonnance metrics are aJigned with the
Secretary's goaJs and the agency's mission. Beyond this, though, ETA has concerns about the
reliability and analysis of the perfonnance metrics, especially as outlined in Exhibit 1: AnaJysis
of Job Corps' 5S Performance Metrics. This analysis appears to be based on incorrect data. mc
has on more than one occasion provided data to revise Exhibit I, yet the final venion does not
include the corrected data. For example, metrics 49' and 50Z are identified as unpUblished and
not publicly available, though mc has shared with the OIG the URLs where these memcs can
be found on Job Corps' public website.




I Metric 50, Student on·boud strength. can be found here:
http;l/www.jobcorps.goyILjbrarieslpdUjob C9!pS cemer invetllory.sf1b
i   The most recent release ofmelric 50, Avcrage Length of Stay, can be found here:
hUD jllwww. jobcorps.govlLibrariesJpdU10 3rd gtr.sflb

                                                                                                   4




                               Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                                   56                       Report No. 26-11-004-03-370
                                        U. S. Department of Labor – Office of Inspector General



Further, ETA maintains that Job Corps' performance metrics meet the intent of the Workforce
Investment Act, Government Perfonnance and Results Act, and Departmental priorities. Job
Corps' metrics are derived from these requirements. Rather than burden the system with
individual metrics, some metrics have been streamlined and assigned a target. For example, the
graduate placement metric meets the WIA requirement to set targets fo r graduates placed in
employment related and not related to training. as well as the number of hours worked. This
metric also fulfills the requirement to collect infonnation on the number of graduates who eoter
education programs, including apprenticeship, and enter the military.

Cost Emc:icDCY
We take issue with the discussion draft' s statements that Job Corps has a cost efficiency metric,
that it is entitled. "cost per participant," and that it is in compliance with ETA's guidance for
reporting cost efficiency.

Job Corps, like all ETA programs, does not use a cost efficiency metric. Rather, Job Corps
tracks and report cost per new enrollee as part of its annual budget submission. It is used by
management for historical and comparative purposes and to infonn management decisions. It is
not, however, used to drive perfonnance and outcome decisions, as this would lead to unintended
consequences. For example, Job Corps has taken steps in r«:ent years to increase student length
of stay in the program, as this leads to more positive outcomes for students. However, an
increased student length of stay would increase the cost per new enrollee, as fewer students
would move through the system. Therefore, using cost per new enrollee to drive perfonnance
management, instead of as an infonnation tool to make longitudinal comparisons, would mean
reducing per student costs at the expense of student achievement.

At this time, none of ETA's programs are using a cost efficiency measure, nor has ETA
developed guidance to calculate cost efficiency. The 010 has cited the May 201 0 study,
"Implementing Efficiency Measures for Employment and Training Programs," using language
that would indicate that Job Corps is out of sync with other ETA programs. This is not the case
as ETA programs are not using cost efficiency metrics. In addition, the study cites significant
challenges to establishing cost efficiency metrics that were ignored by the 010.

Finally, the OIO states that Administration costs should be included when calculating Job Corps'
cost per new enrollee. This practice would set Job Corps apart from all other ETA programs,
which do not include their administration funding in participant cost calculations.
Administration funding impacts only the federal workforce that oversees and monitors the
program, and does not affect the direct delivery of services to students.

Throughout the course of the audit, the 010 provided a wide range of alternative cost metrics for
ETA's consideration. Some of the calculations for OIO's proposed alternative measures
disregarded large subsections of Job Corps' population, which the program is legislatively
mandated to serve. For example, the calculation the OIG proposed for the "cost per success "
metric did not account for any services provided to fonner enrollees, who receive post.
enrollment services outlined in the Workforce Investment Act.. Others disregarded core services
of the program, such as cost per high school diploma completions, which overlooked career
technical training and other core services provided by the program.


                                                                                                     5




                        Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                            57                       Report No. 26-11-004-03-370
                                        U. S. Department of Labor – Office of Inspector General



Evaluations
Job Corps disagrees that the Secretary's Advisory Committee and consultants hired to provide
assessments of the program should have been managed more appropriately. This OIG finding
stems not from the management of the work, but from ETA's reluctance to adopt specific
recommendations from these consultants. ETA has reiterated to the GIG that the work
conducted by these entities is beneficial, even if the final recommendations are not completely
implemented. In fact, ETA and OJC believe that its efforts to address management concerns by
commissioning studies demonstrate sound management technlques.

ETA values the research conducted to improve its programs and services. and comprehensive
analysis is conducted to review results and consider implementation strategies. To the extent
feasible, ETA adopts recommendations that arise from these studies, but does not consider
evaluations invaluable if they do not lead to changes in the program. In some cases,
recommendations may not be cost effective. or aligned with Departmenta1 priorities and
authorizing legislation. This does not negate ETA's commitment to explore multiple avenues to
improve its programs, or the valuable impact of research and evaluation studies on all aspects of
public and private sector programs, services, and initiatives.

Recommendations

ETA is committed to improving the transparency and availability of Job Corps' performance
metrics. As stated previously, ETA has already released a new JTM crosswalk that a1igns Job
Corps training with O·NET·SOC occupational codes, which. will help Job Corps make great
strides in addressing the OIG recommendations. Our responses to the draft report's
reconunendations follow:

OIG Recommendation 1. Review and improve its performance metria to provide decision·
makers with useful and reliable information to make informed decisions regarding the program's
performance and costs. This includes ensuring metrics are complete and accurate, comply with
WIA, and have reported results and established targets.

Response: Management partially accepts this recommendation. Job Corps currently provides
decision makers with reliable data to inform management and programmatic decisions. In Fiscal
Year 2012, ETA will make performance outcomes more transparent to stakeholders and the
public by publishing additional performance metrics as well as an annual report on WIA metrics.

OIG Recommendation 2. Improve oversight of its service providers to increase the number of
students who find employment that relate to and utilize the vocational training received.

Response: Management accepts this recommendation. Based on the current policies and
procedures, during the 1'1quarter ofFY 2012, the National Director of Job Corps will issue a
memorandwn to Regional Offices to reiterate policies and procedures regarding oversight
responsibilities, to include audit sampling during compliance assessments.




                                                                                                    6




                        Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                            58                       Report No. 26-11-004-03-370
                                        U. S. Department of Labor – Office of Inspector General




Job Corps has also created a new safeguard in its electronic system that will require all career
transition services contractors to validate the relevance of a student's placements to the training.
'This new feature will allow for targeted internal audits and reporting centered on high-risk
placement codes, such as "cashier," which have previously held the potential for excessive use.

The National Director of Job Corps will also issue a memorandum through the Regional Offices
to direct career transition services contractors to strengthen policies and procedures to ensure
compliance with Job Corps' policies for determining job training match placements.

Job Corps, in coordination with the ETA Office of Contracts Management, will evaluate the
questionable job training match placements, and seek documentation from the applicable career
transition setVices contractors. In the event that a contractor cannot support the questioned costs,
liquidated damages will be assessed. Appropriate information to close this recommendation will
be forwarded to the OIG.

We consider this recommendation resolved.

01G Reco",melldiztit", 3. Develop a process to ensure the scope ofwork contracted for and
conducted by consultants is managed appropriately to maximize value, ensure sllch investments
work as planned, and result in meaningful improvements.

RespolIse: Management partially accepts this recommendation. ETA conducts its procurement
and contracting activities in accordance with Federal Acquisition Regulations (FAR)
requirements. Further, Contracting Officer's Representative responsibilities are identified in the
FAR. and are strictly enforced. Thus, processes are already in place to execute the OIG's
recommendations. ETA will continue to closely monitor consultants' and committees' work in
assessing Job Corps, and will consider all recommendations.

We consider this recommendation resolved.

Based on the foregoing responses, we anticipate that the audit report's recommendations will be
resolved and can be closed upon completion of the corrective actions.

cc:     Roberta Gassman, ETA
        Edna Primrose, Job Corps




                                                                                                       7




                        Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                            59                       Report No. 26-11-004-03-370
             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





Job Corps Needs to Improve Reliability of Performance Metrics and Results
                    60                       Report No. 26-11-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


                                                                                  Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Jon K. Ling (Audit
Manager), Steven Grubb, Kathleen Mitomi, Catherine Christian, and Patrick Trager.

Additional support for this report was provided by Steve Witherspoon (Reviewer) and
Ajit Buttar (Statistician),




                         Job Corps Needs to Improve Reliability of Performance Metrics and Results
                                             61                       Report No. 26-11-004-03-370
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	      http://www.oig.dol.gov/hotlineform.htm
Email:	       hotline@oig.dol.gov

Telephone:	   1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
